App. 1
Appendix of Mid-to-Late Nineteenth
Century and Early Twentieth Century
Laws Governing the Carrying of
Concealed and Dangerous Weapons
The following appendix provides the Court with
100 examples of laws governing the carrying of concealed and dangerous weapons including, but not limited to, firearms from the mid-nineteenth century to
the early twentieth century.
The examples provided below are not exhaustive.
Rather, the laws cited herein represent only a sample
of the nearly 300 laws governing the carrying of concealed and dangerous weapons that this amicus curiae
has researched. To assist the Court, the laws have been
divided into four categories, and further organized
chronologically therein:
I.

Mid-to-Late Nineteenth Century Laws
Requiring a Permit or License to Carry
Concealed and Dangerous Weapons

II. Early Twentieth Century Laws Requiring a Permit or License to Carry Concealed and Dangerous Weapons
III. Mid-to-Late Nineteenth Century Laws
Prohibiting the Carrying of Concealed
and Dangerous Weapons (Some with Express Carrying Exceptions)
IV. Mid-to-Late Nineteenth Century Laws
Prohibiting the Carrying of Concealed
and Dangerous Weapons with a Reasonableness Exception

App. 2
The laws listed below can also be found at the following URL: https://patrickjcharlesnysrpavbruenamicusbrief.
wordpress.com. There, a link to each source document
is conveniently provided. Note that for the newspapers, only the front page and corresponding pin cite
page in which the respective law is published is provided.
I.

Mid-to Late Nineteenth Century Laws Requiring a Permit or License to Carry Concealed and Dangerous Weapons
A. California Examples

Ordinance No. 84: Prohibiting the Carrying of Concealed Deadly Weapons, Apr. 24, 1876, reprinted in
CHARTER AND ORDINANCES OF THE CITY OF SACRAMENTO 173 (R.M. Clarken ed., 1896) (Sacramento, California).
Section 1: It shall be unlawful for any person, not
being a public officer or traveler, or not having a permit
from the Police Commissioners of the City of Sacramento, to wear or carry, concealed, any pistol, dirk, or
other dangerous or deadly weapon.
Section 2: Any person violating the provisions of
this ordinance shall be punished by a fine not exceeding five hundred dollars, or by imprisonment in the city
prison not exceeding ten days, or by both such fine and
imprisonment.
Section 3: The Police Commissioners of the City
of Sacramento may grant written permission to any

App. 3
peaceable person, whose profession or occupation may
require him to be out at late hours of the night, to carry
concealed deadly weapons for his protection.
Ordinance No. 55: Prohibiting the Carrying of Concealed Weapons, Nov. 6, 1878, reprinted in CHARTER
AND REVISED ORDINANCES OF THE CITY OF EUREKA 251
(1905) (Eureka, California).
Section 1: It shall be unlawful for any person not
being a public officer, or traveler, or not having a permit
from the Mayor of this city, to wear or carry concealed,
within the corporate limits of this city, any pistol, dirk,
or any other dangerous or deadly weapon.
Section 2: Every person violating any of the provisions of this Ordinance shall be deemed guilty of a
misdemeanor, and upon due proof thereof, shall be
fined in a sum not to exceed one hundred dollars, or
imprisonment in the city prison not exceeding ten (10)
days, or by both such fine and imprisonment. Such persons, and no others, shall be termed travelers within
the meaning of this Ordinance as may be actually engaged in making a journey at the time.
Section 3: The Mayor of the city may grant written permission to any peaceable person, whose profession or occupation may require him to be out at late
hours of the night, to carry concealed weapons for his
own protection.

App. 4
Prohibiting the Carrying of Concealed Deadly Weapons, Sep. 17, 1880, reprinted in GENERAL ORDERS OF
THE BOARD OF SUPERVISORS PROVIDING REGULATIONS
FOR THE GOVERNMENT OF THE CITY AND COUNTY OF SAN
FRANCISCO 8 (1884) (San Francisco, California).
Section 22: It shall be unlawful for any person,
not being a public officer or traveler, or not having a
permit from the Police Commissioners of this city and
county, to wear or carry concealed, in this city and
county, any pistol, dirk or other dangerous or deadly
weapon.
Every person violating any of the provisions of this
Order shall be deemed guilty of a misdemeanor, and
punished accordingly. Such persons and no others
shall be termed “travelers,” within the meaning of this
Order as may be actually engaged in making a journey
at the time.
The Police Commissioners may grant written permission to any peaceable person, whose profession or
occupation may require him to be out at late hours of
the night, to carry concealed deadly weapons for his
own protection.1

1

Prior to the ordinance being adopted, there was an order by
the San Francisco Board of Supervisors adopting a similar prohibition. See Order No. 1,226: Prohibiting the Carrying of Concealed
Deadly Weapons, Jul. 9, 1875, reprinted in SAN FRANCISCO MUNICIPAL REPORTS 886 (1875) (“Section 1: It shall be unlawful for any
person, not being a public officer or traveler, or not having a permit from the Police Commissioners of this City and County, to
wear or carry, concealed, in this City and County, any pistol, dirk,
or other dangerous or deadly weapon. Every person violating any

App. 5
Concealed Weapons, undated 1880, reprinted in THE
NAPA DAILY REGISTER, Nov. 10, 1880, at 2 (Napa, California).
Section 1: Every person not being a peace officer,
who shall within the corporate limits of the City of
Napa, carry or wear any dirk, pistol, sword-in-cane,
sling-shot, or other dangerous or deadly weapon concealed, except by special permission in writing from
the President of the Board of Trustees of said city, shall
upon conviction thereof before any Court of competent
jurisdiction, be deemed guilty of a misdemeanor, and
shall be fined in any sum not less than Ten nor more
than One Hundred Dollars, and be imprisoned until
such fine be paid, not exceeding one day for each dollar
of such fine.
Ordinance No. 85: To Prevent the Carrying of Concealed Deadly Weapons, Jan. 6, 1881, reprinted in THE
DAILY INDEPENDENT, Mar. 10, 1888, at 3 (Santa Barbara, California).
Section 1: It shall be unlawful for any person not
being a public officer or a traveler, or not having a permit from the Mayor, to wear or carry concealed, in said

of the provisions of this order shall be deemed guilty of a misdemeanor and punished accordingly. Such persons, and no others,
shall be termed “travellers” within the meaning of this order, as
may be actually engaged in making a journey at the time. The
Police Commissioners may grant written permission to any
peaceable person, whose profession or occupation may require
him to be out at late hours of the night, to carry concealed weapons for his own protection.”).

App. 6
City, any pistol, revolver, knife, dirk or other deadly
weapon.
Section 2: The Mayor may grant written permission to any peaceable person whose profession or occupation may require him to be out at late hours of the
night, to carry concealed deadly weapons for his own
protection; and such persons and not others shall be
deemed travelers within the meaning of this Ordinance, except such as may be actually engaged in making a journey at the time.
Section 3: A violation of any of the provisions of
this Ordinance shall be punishable by a fine of not less
than ($10.00) ten dollars, and not more than ($45.00)
forty-five dollars, or imprisonment for not more than
ten days, or by both such fine and imprisonment.
Town Ordinances: Concerning Concealed Weapons,
undated 1882, reprinted in ALAMEDA DAILY EVENING
ENCINAL, May 3, 1882, at 3 (Alameda, California).
Section 1: It shall be unlawful for anyone, not being a public officer, or not having a permit from the
President of the Board of Trustees, countersigned by
the Chief of Police, to wear or carry concealed weapons
about his person in the Town of Alameda, or any pistol,
slungshot, brass or iron knuckles, or iron bars such as
are usually carried by Chinamen, sand clubs, dirk or
bowie knife, or dangerous or deadly weapon.
Section 2: The President of the Board of Trustees
may grant written permission to any peaceable person,

App. 7
whose profession or occupation may require him to be
out at late hours of the night, to carry concealed deadly
weapons for his own protection. Such permit shall be
countersigned by the Chief of Police before it shall be
issued, and the Chief of Police shall number the same
and keep a registered list of the persons to whom issued, with their residences and occupations.
Section 3: Any person violating this ordinance
shall be punished by a fine not exceeding one hundred
dollars, or by imprisonment in the jail of Alameda
county not exceeding fifty days, or by both such fine
and imprisonment.
Ordinance No. 62: An Ordinance to Prohibit the Carrying of Concealed Deadly Weapons, Dec. 9 1884, reprinted in ST. HELENA STAR, Dec. 11, 1884, at 2 (St.
Helena, California).
Section 1: Every person, not being a peace officer,
who shall within the corporate limits of the town of St.
Helena, carry or wear concealed any pistol, dirk, sword,
slung-shot or other dangerous or deadly weapon, shall
be deemed guilty of a misdemeanor and shall be fined
in any sum not less than ten nor more than fifty dollars
or by imprisonment not less than one day nor more
than thirty days.
Section 2: Provided the President of the Board of
Trustees may grant written permission to any peaceable person whose profession or occupation may require him to be out at late hours of the night, to carry

App. 8
concealed deadly weapons for his own protection, such
permission not to extend beyond one year.
Ordinance No. 6, Nov. 5, 1885, reprinted in THE FRESNO
WEEKLY REPUBLICAN, Nov. 7, 1885, at 3 (Fresno, California).
Section 25: No person except peace officers and
travelers shall carry concealed upon his person any
pistol or firearm, slungshot, dirk or Bowie knife, or
other deadly weapon, without a written permission
from the President of the Board of Trustees; provided,
said President shall have power to revoke such permission at any time.
Ordinance No. 10: An Ordinance Prohibiting the Carrying of Concealed Deadly Weapons, and Fixing the
Penalty Therefor, Aug. 21, 1888, reprinted in LOMPOC
RECORD, Aug. 25, 1888, at 2 (Lompoc, California).
Section 1: It shall be unlawful for any person not
being a public officer or traveler, not having a written
permit from the President of the Board of Trustees of
the Town of Lompoc, to wear or carry concealed, within
the corporate limits of the Town of Lompoc, any pistol,
revolver, dirk, stiletto or other dangerous or deadly
weapon.
Section 2: Every person violating any of the provisions of this Ordinance shall be deemed guilty of a
misdemeanor and be punished by a fine not exceeding
one hundred dollars, or by imprisonment in the town
jail, if there be one, and if not, then by imprisonment

App. 9
in the county jail of Santa Barbara county, for not exceeding thirty days, or by both such fine and imprisonment.
Section 3: Such persons, and no others, shall be
termed “travelers” within the meaning of this Ordinance, as may be actually engaged in making a journey
at the time.
Section 4: The President of the Board of Trustees
of the Town of Lompoc may grant written permission
to any peaceable person whose profession or occupation may require him to be out at late hours of the
night within the corporate limits of the said Town of
Lompoc, to carry concealed deadly weapons for his own
protection.
An Ordinance: An Ordinance to Prohibit the Carrying of Concealed Deadly Weapons, Feb. 4, 1889, reprinted in MARYSVILLE DAILY DEMOCRAT, Feb. 7, 1889,
at 4 (Marysville, California).
Section 1: It shall be unlawful for any person, not
being a public officer or traveler, or not having a written permit from the Marshal of the city of Marysville,
to wear or carry concealed, or otherwise, within the
limits of the city of Marysville, any pistol, dirk, or other
dangerous or deadly weapon.
Section 2: Such person and no others shall be
termed “travelers” within the meaning of this ordinance as may be actually engaged in making a journey
at the time. Any person violating the provisions of this

App. 10
ordinance upon conviction thereof shall be punished by
a fine not to exceed five hundred dollars or by imprisonment not to exceed ten days, or by both.
Section 3: The Marshal may grant written permission to any person whose profession or occupation
may require him to be out at late hours of the night, to
carry concealed deadly weapons for his own protection.
The Marshal may at any time revoke any permit, and
after notice to the person holding a permit and a demand for the return thereof, such permit shall immediately become void.
Section 4: The Marshal shall keep, or cause to be
kept, a book in which shall be recorded, the name of
the person to whom a permit is granted. The date of
such permit and the time the permit continues; the
date when the permit is discontinued, and the date
when the permit is revoked.
Ordinance No. 1141: An Ordinance to Prohibit the
Carrying of Concealed Weapons, May 15, 1890, reprinted in CHARTER OF THE CITY OF OAKLAND 332-33
(W.A. Dow ed., 1898) (Oakland, California).
Section 1: It shall be unlawful for any person in
the City of Oakland, not being a public officer or a traveler actually engaged in making a journey, to wear or
carry concealed about his person without a permit, as
hereinafter provided, any pistol, slung-shot, brass or
iron knuckles, sand club, dirk or bowie knife, or iron
bar or other dangerous or deadly weapon, or any sling
or other contrivance by which shot or other missiles

App. 11
are or may be hurled or projected. A written permit
may be granted by the Mayor for a period of not to exceed one year to any peaceable person whose profession or occupation may require him to be out at late
hours of the night to carry a concealed deadly weapon
upon his person.
Section 2: Every person violating any provision
of this ordinance is guilty of a misdemeanor, and upon
conviction thereof shall be punished by fine of not to
exceed one hundred dollars; and in case such fine be
not paid, then by imprisonment at the rate of one day
for every two dollars of the fine so imposed.
Ordinance No. 49: To Prohibit the Carrying of Concealed Weapons, Jan. 5, 1892, reprinted in THE ORDINANCES AND CHARTER OF THE CITY OF MONTEREY 112
(1913) (Monterey, California).
Section 1: Every person not being a peace officer,
who shall, within the corporate limits of the City of
Monterey, carry or wear any dirk, pistol, sword in cane,
slung-shot or other dangerous or deadly weapon concealed, except by special permission in writing from
the President of the Board of Trustees of said City,
shall, upon conviction thereof before any Court of competent jurisdiction be deemed guilty of a misdemeanor
and shall be fined in any sum not less than Twentyfive nor more than Three Hundred Dollars, or by imprisonment not exceeding ninety days, or by both such
fine and imprisonment.

App. 12
Section 2: Ordinance No. 9 of the City of Monterey, passed by the Board of Trustees on the 16th day of
July, 1889, and all ordinances and pats of ordinances
in conflict herewith, are hereby repealed.
Section 3: This Ordinance shall take effect and
be in force from and after its passage and first publication.
B. Kansas Examples
Ordinance No. 6, Aug. 17, 1882, reprinted in THE WYANDOTT HERALD, Aug. 24, 1884, at 2 (Argentine, Kansas).
Article II:
Safety

Offenses Affecting Public Peace and

[ . . . ] Section 9: Any person in [the city of Argentine] who shall draw any pistol or other weapon in a
hostile manner, or shall make any demonstration or
threat of using such weapon on or against any person,
or any person who shall carry his or her person in a
concealed manner, any pistol, dirk, bowie knife, revolver, slung-shot, billy, brass lead or iron knuckles or
any deadly weapon within the city, shall be, on conviction, fined not less than five nor more than one hundred dollars; provided that this Ordinance shall not be
so construed as to prohibit officers of the law, while on
duty, from being armed or any citizen having a permit
from the Mayor.

App. 13
Ordinance No. 6: An Ordinance Defining Offenses
and Providing Punishments for the Same, Jul. 28,
1884, reprinted in DELPHOS CARRIER, Aug. 1, 1884, at 2
(Delphos, Kansas).
Section 19: Any person who shall within the city
of Delphos, carry about his or her persons any concealed pistol, dirk, bowie knife, revolver, slung shot,
billy, false knuckles or any other deadly weapons, shall
be fined in any sum not exceeding fifty dollars. Provided that upon application to the mayor by any person
he may grant a permit to carry a pistol.
Ordinance No. 10: An Ordinance Relating to Guns,
Pistols, and Other Weapons, Jun. 8, 1887, reprinted in
THE PIONEER DEMOCRAT, Jun. 11, 1887, at 2 (Lakin,
Kansas).
Section 1: That it shall be unlawful for any person or persons to come inside the corporate limits of
this city with any gun, pistol or weapon of any kind on
his person or in his possession or charge. Provided,
however, that the marshal or his deputy may permit
any person or persons who in his opinion should be permitted to pass through said city with their guns, pistols
or other weapons, so to do.
Section 2: That it shall be unlawful for any person who is not an officer of the law to have in his possession or about his premises any gun, pistol or weapon
of any kind, without first having made application to
the city marshal and received a permit to carry or keep
said gun, pistol or other weapon. Provided, however,

App. 14
that this ordinance shall not apply to any person who
is regularly engaged in the business of selling guns,
pistols or other weapons in said city.
Section 3: That any gun, pistol or other weapon
found in the city limits contrary to Section 1 or 2 of this
ordinance may be taken charge of by the marshal of
said city and sold as hereinafter provided.
Ordinance No. 277: An Ordinance Regarding the Carrying of Concealed Weapons and Sale of Deadly Weapons, and Repealing Sec. 117 of Ordinance No. 102, May
18, 1888, reprinted in THE CONCORDIA WEEKLY DAYLIGHT, May 22, 1888, at 7 (Concordia, Kansas).
Section 1: On and after the passage of this ordinance it shall be unlawful for any person within the
City of Concordia to carry upon his or her person any
concealed pistol, bowie knife, dirk, sling shot, billy,
knuckles or any other deadly weapon, unless he has a
permit to do so.
Section 2: That when it shall appear to the
mayor that any person’s employment or condition is
such as to render it proper that he should carry a
deadly weapon, he shall order the clerk to issue such
person a permit to carry a concealed weapon, which
permit shall be good for six months from the date of its
issue, unless sooner revoked.
Section 3: That no such permit shall be issued
until there be paid to the clerk the sum of one dollar,

App. 15
which shall be turned over to the city treasurer and
credited to the general fund.
Section 4: The mayor may at any time for cause
revoke any such permit theretofore issued.
Section 5: Any person found guilty of violating
Sec. one of this ordinance shall for the first offense be
fined in any sum not more than one hundred dollars,
and for each subsequent offense not less than ten nor
more than one hundred dollars.
Section 6: That section 117 of ordinance No. 102
be, and is hereby, repealed.
Section 7: That hereafter it shall be unlawful for
any person within the city of Concordia to sell, loan or
give to any person under the age of 18 years any such
pistol, bowie knife, sling shot, billy, or knuckles or any
other deadly weapon which can be concealed on the
person.
Ordinance No. 169: An Ordinance Relating to Public
Offenses, Jun. 29, 1888, reprinted in HOLTON SIGNAL,
Jul. 4, 1888, at 4 (Holton, Kansas).
Section 18: It shall be unlawful for any person
within this city to carry upon is person a pistol, dirk,
bowie knife or other deadly weapon concealed or otherwise, and any person so doing shall, upon conviction,
be fined in any sum not exceeding one hundred dollars,
or by imprisonment not to exceed three months, or by
both such fine and imprisonment. Provided, however,
that this shall not apply to an officer in the discharge

App. 16
of his official duty, nor to a person carrying an unloaded
shotgun or rifle, and provided further, that the mayor
of this city may for a good cause shown by any person
engaged in any legitimate business, when he deems it
necessary for the safety of such person or his business,
give to such person a written permit attested by his
signature, and the seal of the city, to carry deadly
weapons for his or her defense.
[ . . . ] Section 20: Any person who shall sell,
trade, give, loan or otherwise furnish any pistol, revolver or toy pistol by which cartridges or caps may be
exploded, or any dirk, bowie knife, brass knuckles,
slung shot or any other dangerous weapon to any minor or to any person of notoriously unsound mind shall,
upon conviction, be fined not less than five or more
than one hundred dollars.
Ordinance No. 201: To Prohibit the Carrying of Firearms or Deadly Weapons, and Providing Penalties Therefor, Feb. 5, 1890, reprinted in COFFEYVILLE WEEKLY
JOURNAL, Feb. 7, 1890, at 2 (Coffeyville, Kansas).
Section 1: Any person, other than a peace officer
of the City, or a peace officer of the State of Kansas, or
some County, City or Township in the State, who shall
be found within the corporate limits of the City of
Coffeyville, at any time, having upon his or her person,
concealed or otherwise, without first having obtained
permission from the Mayor, a revolver, pistol, dirkknife, bowie-knife, sling shot, metallic knuckles, or any
other dangerous or deadly weapon, shall be deemed

App. 17
guilty of a misdemeanor, and upon conviction, shall be
sentenced to pay a fine of not less than one nor more
than fifty dollars, or to be imprisoned in the City Jail
not less than one day nor more than ten days, or to both
fine and imprisonment, at the discretion of the Police
Judge.
Section 2: All ordinances and parts of ordinances
in conflict herewith are hereby repealed.
Section 3: This ordinance shall go into effect
from and after its publication in The Journal, a newspaper printed within said City and of general circulation therein.
Ordinance No. 13: An Ordinance in Relation to Offenses Against Public Safety, May 12, 1890, reprinted
in CORNING INDEPENDENT, May 16, 1890, at 3 (Corning,
Kansas).
Section 2: No person shall, in [the city of Corning], wear under his clothes, or concealed about his person, any pistol or revolver, except by special permission
by the Mayor, which permission may be revoked at any
time, nor shall any person wear under his clothes or
concealed about this person, any slung-shot, cross
knuckles, knuckles of lead, brass or other metal, or any
bowie knife, razor, billie, dirk knife or dagger, or any
knife resembling a bowie knife or any other deadly or
dangerous weapon. Any person violating neglecting or
failing to comply with any provision or requirement of
this section shall be deemed guilty of a misdemeanor,
and, upon conviction thereof before the Police Judge,

App. 18
shall be fined not less than five dollars and not more
than one hundred dollars. Provided, however, that this
section shall not be so construed as to prevent any
United States, State, county or city officer, or any member of the city government from carrying such weapons
as may be necessary in the proper discharge of his duties.
Section 3: Any person while exercising the right
of carrying arms, and any other person, who shall
wrongfully draw or threaten to use any arms or do any
other act calculated to cause apprehension or alarm
among the citizens of said city, shall upon conviction
thereof before the Police Judge, be fined in any sum not
less than one dollar nor more than one hundred dollars.
Ordinance No. 79: An Ordinance Relating to Crimes
and Punishments, Dec. 27, 1893, reprinted in SCANDIA
JOURNAL, Jan. 5, 1894, at 8 (Scandia, Kansas).
Section 6: Every person who shall, within the
corporate limits of the city of Scandia, carry or have
upon their person any concealed pistol, revolver, bowieknife, dirk, sling-shot, billy, knuckles or other deadly
weapon, shall upon conviction be fined in any sum not
less than Two ($2.00) Dollars, nor more than Fifty
($50.00) Dollars. Provided:—That any person engaged
in a lawful occupation and of good moral character,
may, by the mayor, be granted a permit to carry such
concealed weapons.

App. 19
C. Other Examples
Ordinance No. 317: Concerning Offenses and Disorderly Conduct, Feb. 18, 1879, reprinted in THE DAILY
ASTORIAN, Feb. 22, 1879, at 3 (Astoria, Oregon).
Section 9: That any person or persons who shall
carry any fire arms, knife, dirk, knuckles, slung-shot or
any other dangerous weapon in a concealed manner
about their or his person, within the corporate limits
of the city, without a permit, which permit shall be issued by the auditor and clerk of the city upon the recommendation, in writing, of the chief of police, and
upon the presentation of the treasurer’s receipt, that
the applicant therefore, has paid into the city treasurer
the sum of five dollars for a yearly permit, or the sum
of one dollar for a permit extending over the period of
one month, shall upon conviction thereof before the police court, be fined not less than two nor more than
twenty-five dollars, or by a term of imprisonment not
exceeding twenty days, provided that this section shall
not apply to the officers of the law.
[City Ordinances], undated, reprinted in ARKANSAS
VALLEY DEMOCRAT, Aug. 8, 1879, at 3 (Arkansas City,
Kansas).
Article 2, Section 2: No person shall in this City,
wear on or about his person any pistol, revolver or any
other dangerous or deadly weapon, except by special
permission from the Mayor, and whoever shall violate
this section shall be deemed guilty of a misdemeanor,
and upon conviction thereof shall be fined not less than

App. 20
five nor more than ten dollars. Provided however that
this section shall not be construed as to prevent any
United States, State, County or City officer from carrying such weapons as may be necessary in the proper
discharge of his duties.
Ordinance No. 29: Concerning the Carrying of Concealed Weapons, Mar. 24, 1880, reprinted in THE NASHVILLE JOURNAL, Mar. 26, 1880, at 4 (Nashville, Illinois).
Section 1: That it shall be unlawful for any person to wear[ ] or carry under his clothes, or concealed
about his person, or in a threatening manner display
any pistol, slung-shot, cross knuckles of lead, brass or
other metal, bowie knife, dirk or dagger, or any knife
resembling a bowie knife, or any other dangerous, or
deadly weapon, instrument or thing within the limits
of the city of Nashville.
Any one violating the provision of this section
shall forf[e]it and pay to the city of Nashville a sum
not less than 20.00 nor more than $200 and costs of
suit for each offence.
Section 2: Provided that nothing in the proceeding section shall be construed so as to prohibit any
United States, State, County or City Officer from carrying and wearing such weapons as may be necessary
in the proper discharge of his duty, or any person aiding in the apprehension of supposed criminals. Provided however that such person have a written permit,
signed by the Mayor and City Clerk, and provided, also
that the Mayor may issue written permits to such

App. 21
persons as in his judgement he may think necessary
for safety and protection to carry such arms revocable
at the pleasure of the Mayor. The same however to be
signed by the Mayor and City Clerk, for which permit
the person applying for the same shall pay to the City
Clerk the sum of fifty cents for his own use. Permits to
be good one year from the date unless sooner revoked
by the Mayor.
Pistols—Carrying Of: Ordinance to Regulate the Carrying of Pistols, Oct. 25, 1880, reprinted in THE BROOKLYN DAILY EAGLE, Oct. 26, 1880, at 1 (Brooklyn, New
York).
Section 1: Every person, except those authorized
by law to make arrests, and persons to whom permits
shall have been issued, as hereinafter provided, who
shall have in his possession, within the City of Brooklyn a pistol of any description, concealed on his person,
shall be punished, on conviction, by a fine not exceeding ten dollars, or, in default of payment of such fine,
by imprisonment not exceeding ten days.
Section 2: Any person twenty one years of age
and over, except as provided in Section 1 of this ordinance, who has occasion to carry a pistol for his protection, may apply to the officer in command of the station
house of the precinct where he resides, and such officer,
if satisfied that the applicant is a proper and law abiding person, shall give said person a recommendation to
the Superintendent of Police, or, in the absence of the
superintendent, to the inspector in command at the

App. 22
central office, who may issue a permit, if approved by
the Commissioners of Police and Excise, to the said
person, allowing him to carry a pistol of any description.
Section 3: Any non-resident, who does business
in the City of Brooklyn, and has occasion to carry a pistol while in said city, must make application for permission to do so to the officer in command of the station
house of the precinct in which he does business, in the
same manner as is required by residents of said city,
and shall be subject to the same conditions and restriction.
Section 4: The Commissioner of Police and Excise is hereby authorized and empowered, for reasons
appearing to be satisfactory to him, to annul or revoke
any permit given under this ordinance. All persons to
whom such permission shall be given are hereby declared to be individually responsible for their own acts
or the consequences that may arise from the use of pistols carried under the permission to be obtained, as
provided in this ordinance.
Section 5: If, at the time of the arrest of any person, a pistol of any description shall be found concealed
on the person so arrested, without the necessary permit to carry the same, the officer making the arrest
shall state such fact to the police magistrate before
whom the prisoner is brought, and shall make a separate complaint (in addition to the complaint under

App. 23
which the arrest is made) against such prisoner for violation of this ordinance.2
Article XXVII: Carrying of Pistols, undated, reprinted
in ORDINANCES OF THE MAYOR, ALDERMEN AND COMMONALTY OF THE CITY OF NEW YORK, IN FORCE JANUARY 1,
1881, 214-16 (Elliott F. Shepard & Ebenezer B. Shafer
eds., 1881) (New York, New York).
Section 264: Every person, except judges of the
federal state and city courts, and officers of the general,
state and municipal governments, authorized by law to
make arrests, and persons to whom permits shall have
been issued, as hereinafter provided, who shall have in
his possession within the city of New York a pistol of
any description concealed on his person, or not carried
openly, shall be deemed guilty of a misdemeanor, and
shall be punished, on conviction, by a fine not exceeding ten dollars, or, in default of payment of such fine,
by imprisonment not exceeding ten days.
Section 265: Any person, except as provided in
this article, who has occasion to carry a pistol for his
protection, may apply to the officer in command at the
station-house of the precinct where he resides, and
such officer, if satisfied that the applicant is a proper
and law-abiding person, shall give said person a recommendation to the superintendent of police, or the inspector in command at the central office in the absence
of the superintendent, who shall issue a permit to the
2

Until January 1, 1898, Brooklyn, New York was autonomous from New York City, New York.

App. 24
said person, allowing him to carry a pistol of any description. Any non-resident who does business in the
city of New York, and has occasion to carry a pistol
while in said city, must make application for permission to do so to the officer in command of the stationhouse of the police precinct in which he so does business, in the same manner as is required by residents
of said city, and shall be subject to the same conditions
and restrictions.
Section 266: If, at the time of arrest, a pistol of
any description shall be found concealed on the person
of, or not carried openly by any one arrested, the officer
making the arrest shall state such fact to the police
magistrate before whom the prisoner is brought, and
shall make a separate complaint against such prisoner
for violation of the provisions of this article.
Section 267: The commissioners of police of the
police department of the city of New York are hereby
authorized and empowered, for reasons appearing to
be satisfactory to them, by a vote of a majority of a
quorum of said commissioners on ayes and noes, to annul or revoke any permission given under this article.
All persons to whom such permission shall be given are
hereby declared to be individually responsible for their
own acts, or the consequences that may arise from the
use of pistols carried under the permission to be obtained as provided in this article.

App. 25
Article II: Offenses Against Public Morals and Decency, undated, reprinted in THE REVISED ORDINANCE
OF THE CITY OF ST. LOUIS 608, 611-12 (M.J. Sullivan ed.,
1881) (St. Louis, Missouri).
Section 8: Hereafter it shall not be lawful for any
person to wear under his clothes, or concealed about
his person, any pistol or revolver, colt, billy, slung shot,
cross knuckles, or knuckles of lead, brass or other
metal, bowie knife, razor, dirk knife, dirk, dagger, or
any knife resembling a bowie knife, or any other dangerous or deadly weapon, within the city of St. Louis,
without written permission from the mayor; and any
person who shall violate this section shall be deemed
guilty of a misdemeanor, and upon conviction thereof,
be fined not less than ten nor more than five hundred
dollars for each and every offense.
Section 9: Nothing in the preceding section shall
be so construed as to prevent any United States, State,
county or city officer, or any member of the city government, from carrying or wearing such weapons as may
be necessary in the proper discharge of his duties.
Offenses, Apr. 12, 1881, reprinted in LAWS AND ORDINANCES FOR THE GOVERNMENT OF THE CITY OF WHEELING, WEST VIRGINIA 204, 206 (1891) (Wheeling, West
Virginia).
Section 14: It shall be unlawful for any person to
carry any slung shot, colt, or knucklers of lead, brass
or other metal or material, or to carry about his person,
hid from common observation, any pistol, dirk, bowie

App. 26
knife, or weapon of the like kind, without a permit in
writing from the mayor so to do. It shall also be unlawful for any person or persons to sell or give away to a
person not of age, any slung shot, colt, or knuckler or
knucklers of lead, brass or other metal or material, or
any pistol, dirk, bowie knife or weapon of the like kind.
Ordinance No. 265: An Ordinance to Suppress the
Carrying of Concealed Weapons Within the Limits of
the City of St. Paul, and to Punish the Offenders for the
Violation of the Ordinance, to Jan. 12, 1882, reprinted
in DAILY GLOBE, Jan. 20, 1882, at 3 (St. Paul, Minnesota).
Section 1: It shall be unlawful for any person
within the limits of the City of St. Paul to carry or wear
under his clothes, or concealed about his person any
pistol or pistols, dirk, dagger, sword, slungshot, cross
knuckles, or knuckles of lead, brass or other metal,
bowie-knife, dirk knife, or razor, or any other dangerous or deadly weapon.
Section 2: Any such weapon or weapons duly adjudged by the municipal court of said city to have been
worn or carried by any person in violation of the first
section of this ordinance shall be forfeited or confiscated to the said city of St. Paul, and shall be so adjudged.
Section 3: Any policeman of the city of St. Paul
may within the limits of said city without a warrant
arrest any person or persons whom such policeman
may find in the act of carrying or wearing under their

App. 27
clothes or concealed about their person any pistol or
pistols, dirk, dagger, sword, slung shot, cross knuckles,
or knuckles of lead, brass or other metal, bowie knife,
dirk knife or razor, or any other dangerous or deadly
weapon, and detain him, her or them in the city jail
until a warrant can be procured or complaint made for
the trial of such person or persons, as provided by the
charter of the city of St. Paul for other offenses under
said charter, and for the trial of such person or persons,
and for the seizure and confiscation of such of the
weapons above referred to as such person or person
may be found in the act of carrying or wearing under
their clothes, or concealed about their persons.
Section 4: Upon complaint made under oath or
affirmation to the municipal court of the city of St. Paul
that any person has been guilty of violating any of the
provisions of Sec. 1 of this ordinance a warrant shall
issue for the arrest of the offender or offenders, returnable as other warrants are returnable: upon the return
of such warrant, the Municipal Court shall proceed to
the hearing and determination of the matter, and if it
shall be adjudged that such person or persons has or
have incurred any of the penalties fixed by this ordinance such court shall so adjudge, and order that the
weapon or weapons concerning the carrying or wearing
of which such penalty shall have been incurred, shall
be confiscated to the city of St. Paul.
And further, every such person or persons so offending, on conviction, shall be required to find sureties for keeping the peace for a term not exceeding six
months.

App. 28
Section 5: Any person or persons violating any of
the provisions of section one of this ordinance shall pay
a fine of not less than five dollars, nor more than one
hundred dollars, or be imprisoned for a term not exceeding ninety days or both, in the discretion of the
municipal judge before whom such conviction shall be
had.
Section 6: The prohibition of this ordinance shall
not apply to the officers and members of the police
force of said city when on duty, nor to any officer of any
court whose duty may be to secure warrants or to make
arrests, nor to persons whose business or occupation
may seem to require the carrying of weapons for protection, and who shall have obtained from the Mayor
of said city a license so to do as hereinafter provided.
Section 7: The Mayor of the city of St. Paul may
grant to so many and to such persons as he may think
proper, licenses to carry concealed weapons; and may
revoke any and all of such licenses at his pleasure.
Section 8: Application for such licenses shall be
made to the Mayor of said city, in writing, and when
granted, the person applying therefor, shall pay into
the City Treasury the sum of two dollars, and thereupon a license shall be issued by the City Clerk and
signed by the Mayor.
Section 9: Every such license shall state the
name, age, occupation and residence of the person to
whom it is granted and shall expire on the thirty-first
day of December each and every year.

App. 29
Section 10: This ordinance shall take effect and
be in force from and after its passage.3
Ordinance No. 43: Concealed Weapons, Jun. 14, 1883,
reprinted in THE CHARTER AND ORDINANCES OF THE CITY
OF HELENA, MONTANA 103-104 (1887) (Helena, Montana).
Section 1: No person shall in this city wear under
his clothes, or concealed on or about his person, any
pistol or revolver, except by special permission from
the mayor; nor shall any person wear under his clothes,
or concealed on or about his person, any slung shot,
cross knuckles, knuckles of lead, brass or other metal,
or any bowie knife, razor, billy, dirk, dirk-knife or dagger, or any knife resembling a bowie knife, or any other
dangerous or deadly weapon. Any person violating any
provision or requirement of this section shall be
deemed guilty of a misdemeanor, and upon conviction
thereof before the police magistrate shall be fined not
less than five dollars nor more than one hundred dollars. Provided, however, that this section shall not be
so construed as to prevent any United States, territorial, county or city officer, or any member of the city
government, from carrying such weapons as may be
necessary in the proper discharge of his duties.

3

See also Article XVIII: Concealed Weapons – License, Jan.
17, 1882, reprinted in THE MUNICIPAL CODE OF SAINT PAUL 289-90
(W.P. Murray ed., 1884).

App. 30
Amendment de Ordinance de Carrying of Concealed
Weapons, Jul. 21, 1886, reprinted in MORNING JOURNALCOURIER, Jul. 27, 1886, at 4 (New Haven, Connecticut).
Be it ordained by the Court of Common Council of
the City of New Haven: That section 12, page 63, of
the City Ordinances, Title “Good Order and Decency,”
be amended so that said section, when amended, shall
read as follows:
“Every person who shall carry in said city any
steel or brass knuckles, pistol or any slung shot, stiletto, or weapon concealed on his person, without permission of the Mayor or Chief of Police, in writing, shall
on conviction, pay a penalty of not less than five nor
more than fifty dollars for every such offense.”
By the Court of Common Council, read and ordinance adopted.4

4

The New Haven, Connecticut ordinance is reprinted in
CHARTER AND ORDINANCES OF THE CITY OF NEW HAVEN 164 (1890).
Other Connecticut municipalities adopted similar ordinances requiring “permission” to carry dangerous weapons in public places.
See Ordinance in Re Concealed Weapons, Mar. 27, 1906, reprinted
in THE HARTFORD COURANT, Mar. 28, 1906, at 14; CHARTER AND
ORDINANCES OF THE CITY OF WATERBURY, CONNECTICUT WITH
AMENDMENTS THERETO 229-30 (1902); ORDINANCES AND BY-LAWS
OF THE BOROUGH OF NAUGATUCK 3 (1901).

App. 31
General Ordinances of the Village of St. Joseph: Ordinance I, to take effect Oct. 15, 1889, reprinted in ST.
JOSEPH SATURDAY HERALD, Oct. 5, 1889, at 7 (St. Joseph,
Michigan).
Section 9: No person, except peace officers, shall
carry or wear under their clothes, or concealed about
their person any pistol, revolver or slung-shot, knuckles, bowie-knife, dirk, dagger or any other dangerous or
deadly weapon, except by written permission of the
President.
Article XXVI: Concealed Weapons, undated, reprinted
in THE MUNICIPAL CODE OF BERLIN, COMPRISING THE
CHARTER AND GENERAL ORDINANCES OF THE CITY, CODIFIED AND REVISED 112-113 (1890) (Berlin, Wisconsin).
Section 483: It shall be unlawful for any person,
within the limits of the City of Berlin, to carry or wear
under his clothes, or concealed about his person, any
pistol, colt or slung shot, cross knuckles, or knuckles of
lead, brass or other metal or bowie knife, dirk knife or
dirk, razor or dagger, or any other dangerous or deadly
weapon. And any person who shall violate any provision of this section, shall pay a fine of not less than one
dollar nor more than fifty dollars for each offense.
Section 484: The provisions of this article shall
not apply to the officers or members of the police force
of said City when on duty, nor to any officer whose duty
it may be to serve warrants or make arrests; nor to persons who shall have obtained from the Mayor a license

App. 32
to carry such weapons for their protection as hereinafter provided.
Section 485: The Mayor may grant, to such persons as he may deem proper, license to carry concealed
weapons and may revoke such license at his pleasure.
Section 486: Application for such license shall be
made to the Mayor, and, when granted, the person so
licensed shall pay to the City Treasurer the sum of one
dollar, and thereupon a license shall be issued by the
City Clerk and signed by the Mayor. Every such license
shall state the name, age, occupation, and residence of
the person to whom it is granted and shall expire on
the thirtieth day of April next following.
Title VII, Chap. 105. Of the Department of Police, An
Act to Revise the Charter of the City of Buffalo, Mar.
27, 1891, reprinted in LAWS OF THE STATE OF NEW YORK
PASSED AT THE ONE HUNDRED AND FOURTEENTH SESSION
OF THE LEGISLATURE 127, 176-77 (1891) (Buffalo, New
York).
Section 209: The superintendent may, upon application in writing, setting forth under oath sufficient
reasons, issue to any person a permit in writing to
carry a pistol or pistols in the city. If such person shall
be a private watchman, whose employers recommend
the issuing of such permit and whose duties may require the use of such weapon or weapons, such permit
shall be issued without charge. For all other such permits issued said superintendent shall charge and receive an annual fee of two dollars and fifty cents, in

App. 33
advance. Such permit shall not continue in force for
more than one year, but may in the discretion of the
superintendent, be revoked, or renewed from time to
time upon the payment in advance of the fee of two
dollars and fifty cents for each year. The superintendent shall keep a register, upon which shall be entered
the name, residence and occupation of every person to
whom he shall issue such permit, the date of issue or
renewal, and the fee received for the same; and all the
fees so received by him shall be deposited monthly in
the city treasury to the credit and for the use of the
police pension fund hereinafter mentioned. No person,
other than members of the police force, regularly
elected constables, the sheriff of Erie county, and his
duly appointed deputies, shall, in the city, carry concealed upon or about his person, any pistol or revolver,
or other dangerous weapon or weapons, without having first obtained a permit, as hereinbefore provided;
and such permit shall be produced and exhibited by
any person holding the same, upon the request of a
member of the police force. A violation of any of the
provisions of this section shall be a misdemeanor and
punishable as such; and all fines imposed and collected
for such violations shall be deposited to the credit of
said pension fund by the clerk of the court imposing
the same.

App. 34
City of Elmira—Official Notice, Jul. 22, 1892, reprinted
in ELMIRA GAZETTE, Jul. 28, 1892, at 7 (Elmira, New
York).
The Common Council of the City of Elmira do ordain and enact as follows:
Section 1: Every person except those authorized
by law to make arrests, and persons to whom permits
shall have been issued, as hereinafter provided, who
shall have in his possession within the city of Elmira,
a pistol of any description concealed on his person,
shall be punished on conviction, by a fine not exceeding
ten dollars, or, in default of payment of such fine, by
imprisonment not exceeding ten days.
Section 2: Any person twenty-one years old and
over, except as provided in section one of this ordinance, who has occasion to carry a pistol for his protection, may apply to the chief of police of this city, and
such officer is satisfied that the applicant is a proper
and law-abiding person, may issue a permit, if approved by the Commissioners of Police, to the said person, allowing him to carry a pistol of any description.
The chief of police shall keep a list of such permits
granted and shall make returns of the same, upon suitable blanks, to the Commissioners of Police as each
meeting of the board for their approval.
Section 3: The chief of police is hereby authorized and empowered, for reasons appearing to be satisfactory to him, to annul or revoke any permit given
under this ordinance. All persons to whom such permission shall be given are hereby declared to be

App. 35
individually responsible for their own acts or the consequences that may arise from the use of pistols carried under the permission to be obtained as provided
in this ordinance.
Section 4: If, at the time of the arrest of any person, a pistol of any description shall be found upon the
person so arrested, without the necessary permit to
carry the same, it shall be deemed to work a forfeiture
of any right or interest such person may have to, or in
such pistol; and the officer making the arrest shall, in
addition to the complaint for which the arrest is made,
make a separate complaint of violation of this ordinance.
Providing that this section shall not apply to any
person who may be carrying a pistol unloaded from the
place of its purchase to the residence or to the place of
business of such person.
Dangerous and Concealed Weapon, Feb. 14, 1888, reprinted in THE REVISED ORDINANCES OF SALT LAKE CITY,
UTAH 283 (1893) (Salt Lake City, Utah).
Section 14: Any person who shall carry and
slingshot, or any concealed deadly weapon, without the
permission of the mayor first had and obtained, shall,
upon conviction, be liable to a fine not exceeding fifty
dollars.

App. 36
Ordinance No. 30: Concealed Weapons, Sep. 12, 1893,
reprinted in RED LODGE PICKET, Sep. 23, 1893, at 3 (Red
Lodge, Montana).
Section 1: It shall be unlawful after the passage
of this ordinance for any person, within the limits of
this town, to carry concealed on his person or under
his clothes any pistol or revolver, or any other dangerous or deadly weapon, except by permission from the
Mayor in writing, which permit shall state the period
of time for which it is granted. Any person who shall
violate the provisions of this section shall be deemed
guilty of a misdemeanor and upon conviction in the Police Magistrate Court shall be fined in any sum not less
than twenty dollars, ($20.00) nor more than one hundred dollars, ($100.00), or be imprisoned in the town
jail not more than thirty days, (30) or both in the discretion of the Court. Provided, however, that this section shall not be construed as to prevent any United
States, State, County or Town officer or any member of
the Town Government, for carrying such weapons as
may be necessary in the proper discharge of his duties.
Section 2: Any person who shall within the limits of this town discharge, or fire, or cause to be discharged or fired any pistol, revolver, gun, rifle or any
other firearm shall be deemed guilty of a misdemeanor
and upon conviction be fined not less than five dollars
($5.00) nor more than one hundred dollars ($100.00) or
be imprisoned in the town jail not more than thirty
days or both in the discretion of the Court.

App. 37
Section 3: It shall be unlawful for any person
within the limits of this town to discharge or use any
slung shot or other device for shooting pebbles, shot or
any other thing; any person violating the provision of
this section shall be deemed guilty of a misdemeanor
and upon conviction be fined in any sum not to exceed
twenty-five dollars and costs.
Chapter XXIX: Concealed Weapons, undated, reprinted
in REVISED ORDINANCES OF THE CITY OF EVANSTON 13132 (1893) (Evanston, Illinois).
Section 531: It shall be unlawful for any person
within the limits of the city of Evanston to carry or
wear under his clothes or concealed about his person,
any pistol, colt or slung shot, cross knucklet, or knuckles of lead, brass or other metal, or bowie knife, dirk,
dagger, or any other dangerous or deadly weapon.
Section 532: Any such weapon or weapons duly
adjudged by any police magistrate, or justice of the
peace, to have been worn or carried by any person, in
violation of section 531 shall be forfeited or confiscated
to the said City of Evanston, and shall be so adjudged.
Section 533: Any policeman of the City of Evanston may, within the limits of said village, without a
warrant, arrest any person or person whom he may
find in the act of carrying or wearing concealed about
his or their persons under their clothes, any weapon
specified in section 531, until a summons or warrant
can be procured on complaint made (under oath or

App. 38
affirmation) for the trial of such person or persons, and
for the seizure and confiscation of such weapons.
Section 534: Upon complaint made, under oath
or affirmation, to any magistrate or justice of the peace
in said city, that any person has been guilty of violating
any of the provisions of section 531, a summons or warrant shall issue for the summoning or arrest of the offender or offenders returnable forthwith; upon the
return of such summons or warrant, such magistrate
or justice shall proceed to the hearing and determination of the matter, and if it shall be adjudged that such
person or person has or have incurred any of the penalties fixed by this chapter, such magistrate or justice
of the peace shall so adjudge and order that the
weapon or weapons, concerning the wearing or carrying of which such penalty shall have been incurred,
shall be confiscated to the city of Evanston.
Section 535: Any person or persons violating any
of the provisions of this chapter shall pay a fine of not
less than five dollars nor more than two hundred dollars, in the discretion of the magistrate or court before
whom such conviction shall be had.
Section 536: The prohibitions of this chapter
shall not apply to the officers or members of the police
force of said city when on duty, nor to any officer of any
court whose duty it may be to serve warrants or to
make arrests; nor to persons whose business or occupation may seem to require the carrying of weapons for
their protection, and who shall have obtained from the
mayor a license so to do, as hereinafter provided.

App. 39
Section 537: The Mayor may grant to so many
and such persons as he may think proper, licenses to
carry concealed weapons, and may revoke any and all
of such licenses at his pleasure.
Section 538: Applications for such licenses shall
be made to the city clerk, and when granted, the applicant therefor shall pay to the said clerk, for the use of
the city, the sum of two dollars.
Section 539: Every such license shall state the
name, age and occupation and residence of the person
to whom it is granted.
Ordinance No. A544: An Ordinance to Punish the
Carrying of Concealed Weapons Within the City of Spokane, Jan. 2, 1895, reprinted in THE MUNICIPAL CODE
OF THE CITY OF SPOKANE, WASHINGTON 309-10 (Rose M.
Denny ed., 1896) (Spokane, Washington).
Section 1: If any person within the City of Spokane shall carry upon his person any concealed
weapon, consisting of either a revolver, pistol or other
fire-arms, or any knife (other than an ordinary pocket
knife), or any dirk or dagger, sling-shot or metal knuckles, or any instrument by the use of which injury could
be inflicted upon the person or property of any other
person, shall be deemed guilty of a misdemeanor, and
upon conviction thereof shall be fined not less than
twenty dollars, nor more than one hundred dollars and
costs prosecution, and be imprisoned until such fine
and costs are paid; provided, that this section shall not
apply to police officers and other persons whose duty it

App. 40
is to execute process or warrants or make arrests, or
persons having a special written permit from the Superior Court to carry weapons.
Section 2: This ordinance shall take effect and be
in force ten days after its passage.
Ordinances of the City of Barre Continued: Chapter
XLIII: Of Sundry Prohibitions and Penalties, undated,
reprinted in THE GRANITE CITY LEADER, Jun. 15, 1895,
at supplement 1-3 (Barre, Vermont).
Section 13: No person shall carry within the city
any steel or brass knuckles, pistol, slung shot, stiletto,
or weapon of similar character, nor carry any weapon
concealed on his person without permission of the
mayor or chief of police in writing.5
Article XVI: Concealed Weapons, An Ordinance Regulating the Carrying of Concealed Weapons in the City
of Lincoln, Prohibiting the Carrying of the Same Under
Certain Conditions, Prescribing Penalties for Violation
of the Provisions of this Ordinance, and Repealing Ordinances in Conflict Herewith, Aug. 26, 1895, reprinted
in REVISED ORDINANCES OF LINCOLN, NEBRASKA 209-10
(1895) (Lincoln, Nebraska).
Section 1: It shall be unlawful for any person within said city to carry about the person any concealed
5

The exact same law was adopted in Saint Albans City, Vermont. See Ordinances of the City of St. Albans, ST. ALBANS DAILY
MESSENGER SUPPLEMENT, Aug. 7, 1897, at 1, 10 (Chapter XXXV:
Of Sundry Prohibitions and Penalties, § 3).

App. 41
pistol, revolver, dirk . . . or other dangerous or deadly
weapons of any kind, excepting only officers of the law
in the discharge of their duties; and any person so offending shall be deemed guilty of a misdemeanor, and
on conviction thereof shall be subject to the penalty
hereinafter provided.
Section 2: Any such weapon or weapons, duly adjudged by the Police Judge of said city to have been
worn or carried by any person, in violation of the first
section of this ordinance, shall be so forfeited or confiscated to the said city of Lincoln, and shall be so adjudged.
Section 3: Any policeman of the city of Lincoln
may within the limits of said city without warrant arrest any person or persons whom such policeman may
find in the act of carrying or wearing under their
clothes or concealed about their person, any pistol, or
revolver, slung shot, or cross-knuckles, or knuckles of
lead, brass or other metal, or bowie knife, dirk knife, or
dirk, or dagger, or any other dangerous or deadly
weapon, and detain him, her, or them, in the city jail
under a warrant can be procured.
Section 4: Any person or persons violating any of
the provisions of the first section of this ordinance,
shall, upon conviction, pay a fine of not more than one
hundred dollars, and be committed until such fine and
costs are paid.
Section 5: The prohibitions of this ordinance
shall not apply to the officers or members of the police
force of the city when on duty, nor to any officer of any

App. 42
court whose duty may be to serve warrants or to make
arrests, nor to persons whose business or occupation
may seem to require the carrying of weapons for their
protection, and who shall have obtained from the
Mayor a license so to do.
Section 6: The Mayor may grant to so many and
such persons as he may think proper, licenses to carry
concealed weapons, and may revoke any and all of such
licenses at his pleasure. Every such license shall state
the name, age, occupation, and resident, of the person
to whom granted, and shall be good for one year. A fee
of fifty cents shall be paid therefor to the City Treasurer, and by him placed in the police fund.
Chapter XX: Misdemeanors, undated, reprinted in
ORDINANCES OF THE CITY OF MILWAUKEE TO JANUARY 1,
1896: WITH AMENDMENTS THERETO AND AN APPENDIX
687, 692-93 (Charles H. Hamilton ed., 1896) (Milwaukee, Wisconsin).
Section 25: It shall be unlawful for any person
except policemen, regular or special, or any officer authorized to serve process, to carry or wear concealed
about his person, any pistol or colt, slung-shot, crossknuckles, knuckles of lead, brass or other metal, or
bowie-knife, dirk knife, or dirk or dagger, or any other
dangerous or deadly weapon, within the limits of the
city of Milwaukee; provided, however, that the chief of
police of said city may upon any written application to
him made, issue and give a written permit application
to him made, issue and give a written permit to any
person residing within the city of Milwaukee, to carry

App. 43
within the said city a pistol or revolver when it is made
to appear to said chief of police that it is necessary for
the personal safety of such person or for the safety of
his property or of the property with which he may be
entrusted, to carry such weapon; and the holding of
such permit by such person shall be a bar to prosecution under this ordinance.
Said chief of police shall keep the names and residences of all persons to whom he may grant such permits, in a book to be kept for that purpose, and he shall
have power to revoke such permits at any time. Said
chief of police shall, upon granting each and every such
permit, collect from the person to whom the same is
granted, the sum of three (3) dollars, and he shall pay
all moneys collected by him upon granting such permits, into the city treasury.
Any person who shall wear or carry any such pistol, slung-shot, cross-knuckles, knuckles of brass, lead
or other metal, knife, dirk or dagger, or any other dangerous or deadly weapon, within the limits of the city
of Milwaukee, contrary to the provisions of this chapter, shall be liable to a penalty of not less than ten nor
more than one hundred dollars for each and every offense.

App. 44
Town of Montclair: An Ordinance to Regulate the Carrying of Concealed Weapons and to Prohibit the Carrying of the Same Except as Herein Provided, May 3,
1897, reprinted in MONTCLAIR TIMES, May 15, 1897, at
8 (Montclair, New Jersey).
Section 1: No person shall carry any deadly
weapon concealed on his person within the Town of
Montclair except members of the police force of the
Town of Montclair, public officers either of the United
States or this State or any sub-division thereof who are
duly authorized by law to carry such weapons and persons to whom permits shall have been issued as hereinafter provided.
Section 2: Any person who has occasion to carry
a deadly weapon for his protection may apply to the
Superintendent of Police and if he is satisfied that the
applicant is a proper and law-aiding person and that
there is a good reason why such applicant should be
allowed to carry such weapon he may issue a permit to
said person allowing him to carry such weapon, but before delivering such permit he shall procure the same
to be countersigned by the Chairman of the Police
Committee of the Council. Such applicant shall at the
time of issuing of the permit file with the Chief of Police his name and address. A permanent record of such
permits shall be kept at police headquarters, showing
the date of each permit, the name and address of the
person to whom it has been issued and the date of revocation thereof.
Section 3: Any person violating the terms of this
ordinance shall be subject to a fine of twenty dollars

App. 45
and in case of non-payment thereof to imprisonment in
the county jail for a period of thirty days.
Section 4: The Chairman of the Police Committee of the Council or the Superintendent of Police
shall have the power to annul or revoke any permission given under this ordinance and a written notice of
such revocation or annulment served personally or
mailed to the person to whom the permit has been issued at the address given by him at the time of obtaining his permit, shall be deemed sufficient notice of
such revocation or annulment, and such revocation
or annulment shall take effect immediately if served
personally, and if served by mail, twenty-four hours after it shall have been mailed. It shall be the duty of
such chairman after serving such notice forthwith to
file with the Superintendent of Police a written notice
of such revocation, with the day and hour of serving
the same and the manner of service, and the Chief of
Police shall enter such revocation on the aforesaid record as soon as it shall have gone into effect.
Section 5: All persons to whom such permission
shall be given are hereby declared to be individually
responsible for their own acts and for the consequences
which may arise from the use of any weapon or weapons to be carried under the permission to be obtained
as provided in this ordinance.

App. 46
II.

Early Twentieth Century Laws Requiring
a Permit or License to Carry Concealed and
Dangerous Weapons

Ordinance No. 13: An Act to Prohibit the Carrying on
Concealed Weapons, Mar. 10, 1902, reprinted in OKEENE
EAGLE, Mar. 14, 1902, at 1 (Okeene, Oklahoma).
Section 1: It shall be unlawful for any person to
carry upon his person any concealed pistol, revolver,
dirk, bowie knife, billy, sling shot, metal knuckles, or
other dangerous or deadly weapons of any kind, excepting only officers of the law in the discharge of their
duties; and any person so offending shall be deemed
guilty of a misdemeanor, and on conviction thereof,
shall be subject to the penalty hereinafter provided.
Section 2: Any such weapon or weapons, duly adjudged by the Justice of the Peace, of said town to have
been worn or carried by any person in violation of the
first section of this ordinance shall be forfeited or confiscated to the town of Okeene, and shall be so adjudged.
Section 3: The Town Marshall or any other police
officer of said town, may within the limits of said town,
without warrant arrest any person or persons found in
the act of carrying or wearing any of said weapons so
concealed, and detain him or them, until a warrant can
be procured.
Section 4: Any person or persons violating any of
the provisions of this ordinance, shall upon conviction
pay a fine of not more than ten dollars, and be committed until such fine and costs are paid.

App. 47
Section 5: The Chairman may grant to so many
and such persons as he may desire, licenses to carry
concealed weapons, and may revoke any and all of such
licenses at his pleasure. Every such license shall state
the name, age, occupation and residence of the person
to whom granted, and shall be good for one month.
Whereas an emergency exists this ordinance shall
be in full force and effect from and after its passage
and approval as by law required.
Ordinance No. 32: An Ordinance to Define Misdemeanors and Provide Penalty Therefor, and for Other
Purposes, Jun. 1, 1903, reprinted in THE DAILY MORNING ALASKAN, Jun. 18, 1903, at 2 (Skagway, Alaska).
Article I:
Quiet

Offenses Against Public Peace and

[ . . . ] Section 10: Every person who shall carry
or wear under his or her clothes, or concealed about his
or her person, any weapon, shall, upon conviction
thereof, be deemed guilty of a misdemeanor, and shall
be punished by a fine of not more than fifty dollars, or
by imprisonment in the municipal jail not more than
thirty days, or by both such fine and imprisonment;
provided, this section shall not apply to officers carrying weapons in the discharge of their official duties;
provided further, that the ex-officio mayor may, upon
request, if he deems it advisable, grant to any person

App. 48
not herein granted the privilege a permit in writing to
carry a pistol or revolver concealed upon his person.6
City Ordinance No. 45: An Ordinance Concerning
Breaches of the Peace . . . and Other Matters Relating
Thereto, Aug. 29, 1905, reprinted in THE RENO EVENING
GAZETTE, Sep. 6, 1905, at 6 (Reno, Nevada).
Section 7: It shall be unlawful for any person
within the limits of the city of Reno, to wear, carry, or
have concealed upon his person any dirk knife, pistol,
sword in case, slung shot, brass knuckles, razor or
other dangerous weapon without first obtaining permission from the City Council. The City Council may,
upon application made in writing showing the reason
of the person or the purpose for which any concealed
weapon is to be carried, grant permission under the
seal of the city and attested by its clerk to the person
making such application authorizing such person to
carry the concealed weapon described in such permission. Any person who shall violate any of the provisions
of this section shall be guilty of a misdemeanor and on
conviction thereof shall be fined not less than twenty
($20.00) dollars, nor more than five hundred ($500.00)
dollars, or imprisoned in the city jail for not less than
thirty (30) days, nor more than six (6) months. This
6

In 1903, although Alaska was not yet declared a U.S. territory by Congress, it was legally bound by the U.S. Constitution
and Carter’s Annotated Codes of Alaska. See Frederic E. Brown,
The Sources of the Alaska and Oregon Codes: Part II, 2 U.C.L.A.Alaska. L. Rev. 87 (1973); THOMAS H. CARTER, THE LAWS OF
ALASKA (1900).

App. 49
section shall not apply to peace officers in the discharge of their duties, nor to persons acting or engaged
in the business of common carriers within this state,
nor to persons traveling through the state.
Ordinance No. 2284, Jan. 26, 1905, reprinted in REVISED
CHARTER AND ORDINANCES OF THE CITY OF TACOMA,
WASHINGTON 800-803 (1905) (Tacoma, Washington).
Section 1: That the following persons are hereby
declared to be disorderly persons:
[ . . . ] All persons (except police officers and other
persons whose duty it is to execute process or warrants
or make arrests) who shall carry upon their persons
any concealed weapons, consisting of a revolver, pistol
or other firearms (except by written permit from the
Chief of Police) or any knife (other than an ordinary
pocket knife) or any dirk or dagger, sling shot or metal
knuckles or any instrument by the use of which injury
can be inflicted upon the person or property of any
other persons.
All persons (except peace officers as aforesaid) who
shall draw, exhibit or attempt to use any deadly
weapon upon, to or against another person within said
City with intent to do bodily injury to such person.
All persons (except peace officers as aforesaid and
persons practicing at target shooting in a shooting gallery, duly licensed) who shall within the City limits fire
off or discharge any gun or pistol or firearm of any
kind, or bomb. [ . . . ]

App. 50
Chapter XXII: Concealed Weapons, undated, reprinted
in CODIFIED ORDINANCES OF THE CITY OF ANACONDA 39092 (T. O’Leary ed., 1906) (Anaconda, Montana).
Section 526: It shall be unlawful for any person
within the City of Anaconda to carry or wear under his
clothes or concealed about his person, any pistol, revolver, slung-shot, cross-knuckles, knuckles of lead,
brass or other metal, bowie knife or dirk, razor or dagger, or any other dangerous or deadly weapon.
Section 527: Any such weapon or weapons, duly
adjudged by the Police Magistrate or Justice of the
Peace acting as Police Magistrate to have been worn or
carried by any person, in violation of the foregoing section of this chapter, shall be forfeited or confiscated to
the said City of Anaconda and shall be so judged.
Section 528: It shall be the duty of the policeman
of the City of Anaconda to arrest without warrant any
person or persons whom any policeman may find in the
act of carrying or wearing under their clothes or concealed about their persons any pistol, revolver, slungshot, cross-knuckles, knuckles of lead, brass or other
metal, bowie knife, dirk knife, dirk or dagger, razor, or
other dangerous or deadly weapon, and detain him in
the city jail until a complaint can be made against him
and a warrant secured, and bring him before the Police
Magistrate for the trial of such person or persons, and
for the seizure and confiscation of such of the weapons
above referred to as such person or persons may be
found in the act of carrying or wearing under their
clothes, or concealed about their persons.

App. 51
Section 529: The Police Magistrate, or Justice of
the Peace acting as Police Magistrate, before whom the
complaint is made, as provided in the foregoing section,
shall proceed to the hearing and determination of the
matter, and if it shall be adjudged that such person or
persons has or have incurred any of the penalties fixed
by this chapter, such magistrate or justice of the peace
shall so adjudge, and order that the weapon or weapons, concerning the carrying or wearing of which said
penalty shall have been incurred, shall be confiscated
to the City of Anaconda.
Section 530: Any person or persons violating any
of the provisions of Section 526 of this Chapter shall
pay a fine of not less than ten dollars nor more than
three hundred dollars.
Section 531: The prohibitions of this Chapter
shall not apply to the police force of the City of Anaconda when on duty, sheriffs and sheriffs’ officers and
officers of the State and of the United States, whose
several duties may be of character requiring them to
have arms in the performance of their duty, nor to persons whose business or occupation may seem to require the carrying of weapons for their protection, and
who shall have obtained from the Mayor a license to do
so as hereinafter provided.
Section 532: The Mayor may grant to so many
such persons as he may think proper licenses to carry
concealed weapons, and may revoke any and all such
licenses at his pleasure.

App. 52
Section 533: Applications for such licenses shall
be made to the Mayor, and when granted, the person
applying therefor shall pay to the City Treasurer the
sum of two dollars, and thereupon a license shall be
issued by the City Clerk and signed by the Mayor.
Every such license shall state the name, age, occupation and residence of the person to whom it is granted,
and shall expire on the thirtieth day of April next following.
Section 534: Any person who shall violate any of
the provisions of this Chapter, where no other penalty
is prescribed, shall upon conviction be fined in a sum
not less than one hundred dollars for each and every
offense.
Chapter 72: An Ordinance Regulating the Carrying
of Loaded Firearms in the City of Albany, Mar. 6,
1905 reprinted in MUNICIPAL CODE OF THE CITY OF ALBANY, N.Y. 849-50 (1910) (Albany, New York).
Section 1: Any person, other than a peace officer,
who shall in any public street, highway or place within
the City of Albany, have or carry concealed upon his
person any loaded pistol, revolver, or other firearm,
without theretofore having been authorized as hereinafter provided to carry the same, shall be guilty of a
misdemeanor, punishable by a fine not exceeding one
hundred and fifty dollars, or by imprisonment in a penitentiary or county jail for not more than one hundred
and fifty days, or by both.

App. 53
Section 2: Any person, except as provided in this
ordinance, who has occasion to carry a loaded revolver,
pistol or firearms for his protection, may apply to the
Commissioner of Public Safety—and such officer, if satisfied that the applicant is a proper and law-abiding
person, shall give the said person a permit allowing
him to carry such loaded firearm for such period of
time as he may deem proper. Any nonresident who does
business in the City of Albany, and has occasion to
carry a loaded pistol, revolver, or firearm while in the
said city, must make application for permission to do
so, to the Commissioner of Public Safety, in the same
manner as is required for residents of said city, and
shall be subject to the same conditions and restrictions.
Section 3: If, at the time of arrest, a loaded pistol,
revolver, or firearm of any description shall be found
concealed on the person of the one arrested, the officer
making the arrest shall state such fact to the Magistrate before whom the prisoner is brought, and shall
make a separate complaint against such prisoner, for
violation of the provisions of this ordinance.
Section 4: The Commissioner of Public Safety is
hereby authorized and empowered, for reasons appearing to be satisfactory to him, to annul, or revoke any
permission given under this ordinance. Every person
to whom a permit shall be granted as above provided,
shall pay therefor, the sum of two dollars and fifty
cents; which shall be applied in aid of the Police Pension Fund; and a return in detail, shall be made
monthly by the Commissioner of Public Safety, to the
Comptroller of the City, of the amount so received and

App. 54
credited. All persons to whom such permission shall be
granted are hereby declared to be individually responsible for their own acts, or the consequences that may
arise from the use of loaded pistols, revolvers, or firearms, carried under the permission obtained as provided in this ordinance.
Section 5: All ordinances or parts of ordinances
of the City of Albany, inconsistent with the provisions
of this ordinance are hereby repealed.
An Ordinance Regulating the Carrying of Loaded Firearms and Other Dangerous Weapons in the City of
Troy, May 4, 1905 reprinted in MUNICIPAL ORDINANCES
OF THE CITY OF TROY 425-26 (1905) (Troy, New York).
Section 1: Any person, other than a peace officer,
who shall in any public street, highway or place within
the City of Troy, have or carry concealed upon his person any loaded pistol, revolver, or other firearm, or any
slungshot, billy, sand-club, or a dagger, dirk, stiletto, or
dangerous knife, without theretofore having been authorized as hereinafter provided to carry the same,
shall be guilty of a misdemeanor, punishable by a fine
not exceeding one hundred and fifty dollars or by imprisonment in a penitentiary or county jail for not
more than one hundred and fifty days, or by both.
Section 2: Any person, except as provided in this
ordinance, who has occasion to carry a loaded revolver,
pistol or firearm for his protection, may apply to the
commissioner of public safety—and such officer, if satisfied that the applicant is a proper and law-abiding

App. 55
person, shall give the said person a permit allowing
him to carry such loaded firearm for such period of
time as he may deem proper. Any non-resident who
does business in the City of Troy, and has occasion to
carry a loaded pistol, revolver, or firearm while in the
said city, must make application for permission to do
so, to the commissioner of public safety, in the same
manner as is required of residents of said city, and
shall be subject to the same conditions and restrictions.
Section 3: If, at the time of arrest, a loaded pistol,
revolver, or firearm of any description or slungshot,
billy, sand club, or a dagger, dirk, stiletto, or dangerous
knife, shall be found concealed on the person of the
one arrested, the officer making the arrest shall state
such fact to the Magistrate before whom the prisoner
is brought, and shall make a separate complaint
against such prisoner, for violation of the provisions of
this ordinance.
Section 4: The commissioner of public safety is
hereby authorized and empowered, for reasons appearing to be satisfactory to him, to annul, or revoke any
permission given under this ordinance. Every person
to whom a permit shall be given as above provided,
shall pay therefor, the sum of two dollars and fifty
cents; which shall be applied in aid of the police pension fund; and a return in detail, shall be made
monthly by the commissioner of public safety, to the
comptroller of the city, of the amount so received and
credited. All persons to whom such permission shall be
granted are hereby declared to be individually responsible for their own acts or the consequences that may

App. 56
arise from the use of loaded pistols, revolvers or firearms, carried under the permission obtained as provided in this ordinance.
Section 5: All ordinances or parts of ordinances
of the City of Troy, inconsistent with the provisions of
this ordinance are hereby repealed.
Section 6: This ordinance shall take effect immediately.
Chapter 172: An Act to Regulate by License the Carrying of Concealed Weapons, Mar. 16, 1906, reprinted
in ACTS AND RESOLVES PASSED BY THE GENERAL COURT
OF MASSACHUSETTS IN THE YEAR 1906, at 150 (1906)
(Massachusetts).
Section 1: The justice of a court, or trial justices,
the board of police or mayor of a city, or the selectmen
of a town, or persons authorized by them, respectively,
may, upon the application of any person, issue a license
to such person to carry a loaded pistol or revolver in
this Commonwealth, if it appears that the applicant
has good reason to fear an injury to his person or property, and that he is a suitable person to be so licensed.
Section 2: Whoever, except as provided by the
laws of this Commonwealth, carries on his person a
loaded pistol or revolver, without authority or permission as provided in section one of this act, or whoever
carries any stiletto, dagger, dirk-knife, slung-shot or
metallic knuckles, shall upon conviction be punished
by a fine of not less than ten nor more than one

App. 57
hundred dollars, or by imprisonment for a term not exceeding one year, or by both such fine and imprisonment.
Ordinance No. 22: An Ordinance Relating to Concealed Weapons and Providing Penalty for Carrying
Same, Jun. 10, 1909, reprinted in THE HARLOWTON
NEWS, Jun. 18, 1909, at 3 (Harlowton, Montana).
Section 1: No person in the town of Harlowton
shall wear under his or her clothes or concealed on
or about their person, any pistol or revolver, except
by special permission from the Mayor; nor shall any
person wear under his or her clothes or concealed on
or about their person, any sling-shot, cross knuckles
of lead, brass or other metal, or any bowie-knife, razor, billy, dirk, dirk-knife or dagg[e]r, or any knife resembling a bowie-knife, or any other dangerous or
deadly weapon. Any person violating any provision of
this ordinance shall be deemed guilty of a misdemeanor, and on conviction thereof shall be fined in any
sum not to exceed one hundred dollars, provided however, that this ordinance shall not be so construed as to
prevent any United States, State, County or town officer, or any member of the town officer, or any member
of the town government from carrying such weapons
as may be necessary in the discharge of his duties.
Section 2: This ordinance shall be in full force
and effect on and after its passage and approval.7
7

On October 5, 1909, an almost identical ordinance was
adopted in the town of Malta, Montana. See Ordinance No. 2: An

App. 58
Ordinance Relating to Concealed Weapons, Oct. 9,
1909, reprinted in CITY OF PORTLAND, AUDITOR’S FIFTYFIRST ANNUAL REPORT 152-53 (1910) (Portland, Maine).
Section 1: No person shall, within the corporate
limits of the City of Portland, in a threatening manner
display any firearm, slung shot, knuckles, bowie knife,
dirk, stiletto, or other dangerous or deadly weapon.
And no person shall, within the corporate limits of the
City of Portland, wear under his clothes or concealed
about his person any such firearm, slung shot, knuckles, bowie knife, dirk stiletto, or other dangerous or
deadly weapon, unless first licensed so to do in the
manner following:
Section 2: The Chief of Police, or, in his absence,
either of the captains of police, may, upon written application, issue to any person of good moral character,
whose business or occupation requires the carrying of
such weapons for protection, a certificate setting forth
that such person has complied with the requirements
of this ordinance, and that he has been duly licensed
to carry such weapon or weapons for protection. Such
license shall continue in effect until revoked by the
Chief of Police.
Section 3: Nothing in the forgoing sections shall
be construed as forbidding the carrying or wearing of
such weapons by United States marshals, sheriffs and

Ordinance Relating to Concealed Weapons, reprinted in ENTERPRISE, Oct. 20, 1909, at 1.

App. 59
their deputies, and constables and police officers of the
City of Portland.
Section 4: Whoever violates this ordinance shall
be fined not less than five nor more than twenty dollars
for each offense.
Section 5. This ordinance shall take effect when
approved.
Penal Ordinance No. 35: Concealed Weapon, Dec. 7,
1909, reprinted in REVISED CHARTER AND ORDINANCES
OF THE CITY OF LOCKPORT 336-37 (1913) (Lockport, New
York).
Section 1: No person over the age of 16 years
shall have or carry concealed upon his person, in the
said city, any pistol, revolver, or other firearm without
a written license therefor, theretofore issued to him by
the chief of police of such city as hereinafter provided.
Section 2: The chief of police may, upon application therefor, issue to any person, who is over sixteen
years of age and a citizen of the United States, a permit
in writing to carry a pistol or revolver in said city. For
such permits so issued said chief of police shall charge
and receive a fee of one dollar and fifty cents in advance. Said permit shall not continue in force for more
than one year, and may, in the discretion of the chief of
police, be revoked or renewed from time to time upon
the payment in advance of one dollar and fifty cents
for each year, or fraction thereof. The chief of police
shall keep a record of the name, age, residence and

App. 60
occupation of every person to whom he shall issue such
permit, and date of issue, or renewal, and the fee received for the same; and all the fees so received by him
shall be deposited monthly in the city treasury to the
credit and for the use of the police pension fund of said
city. Any permit issued hereunder shall be produced
and exhibited by any person holding the same, upon
the request of a member of the police department of
said city.
Section 3: Any person violating any of the provisions of this ordinance shall be guilty of a misdemeanor and shall be punishable by a fine not to exceed
fifty dollars, or imprisonment not to exceed six months,
or by both such fine and imprisonment. And all fines
imposed and collected for a violation of this section
shall be deposited to the credit of said pension fund by
the person so collecting the same.
Section 4: This ordinance shall take effect immediately.
Ordinance No. 160: An Ordinance Defining Offenses
Against the Peace and Good Order of the City of Caldwell, and Providing Punishment Therefore, May 17,
1910, reprinted in THE CALDWELL TRIBUNE, May 27,
1910, at 2 (Caldwell, Idaho).
Section 10: Any person excepting peace officers
who shall carry any sling shot, or any concealed deadly
weapon without the permission of the mayor first had
and obtained within the City of Caldwell, shall upon

App. 61
conviction thereof, be liable to a fine not exceeding one
hundred dollars.8
City Ordinance No. 126: An Ordinance Concerning
Breaches of the Peace . . . and Other Matters Relating
Thereto, Jan. 30, 1912, reprinted in THE VIRGINIA ENTERPRISE, Feb. 9, 1912, at 12 (Virginia, Minnesota).
Section 1: No person shall go armed with a dirk,
dagger, sword, pistol, revolver, air-gun, stiletto, metallic knuckles, pocket billie, sand bag, skull cracker, sling
shot, razor or other offensive and dangerous weapon or
instrument concealed upon his person, within the limits of the City of Virginia. Provided this ordinance shall
not apply to public officers of the City of Virginia when
on duty, nor to any person whose occupation or business may seem to require the carrying of weapons for
protection, and who shall have obtained from the
Mayor of said city a license so to do.
Section 2: The Mayor of the City of Virginia may
grant to such persons as he may deem proper, a license
to carry concealed weapons, which permits shall be issued for a period not to exceed six months, and such
permits may be revoked by the Mayor at any time. Applications for such license shall be made to the Mayor
in writing, and, when granted, the person applying

8

In 1905, Twin Falls, Idaho adopted a similar ordinance. See
Ordinance No. 11: An Ordinance Defining Offenses Against the
Peace and Good Order of the Village of Twin Falls, and Providing Punishment Thereof, Jun. 22, 1905, reprinted in TWIN FALLS
NEWS, Jun. 23, 1905, at 3 (Section 9).

App. 62
therefor shall pay to the City Treasurer the sum of One
Dollar and thereupon a license shall be issued by the
City Clerk and signed by the Mayor, which license
shall state the name, age, occupation and residence of
the person to whom it is granted, and the date of expiration.
Section 3: Any instrument of weapon duly adjudged by the Municipal Court of said city to have been
worn or carried in violation of Section (1) of this ordinance shall be forfeited to the city of Virginia, and shall
be so adjudged, and all weapons so forfeited shall be
delivered to the Chief of Police and shall be kept by
him, and at the first meeting of the City Council after
January 1st and July 1st of each year, he shall report
to the council a list of all articles so received by him,
and the council shall sell or dispose of said property in
such manner as the council may determine.
Section 4: Any person violating any provisions in
this ordinance shall be punished by a fine of not less
than Ten ($10.00) Dollars and not more than One Hundred ($100.00) Dollars, or imprisonment in the county
jail or the city jail for not to exceed ninety days.
Section 5: This ordinance shall take effect and be
in force from and after its passage, approval and publication.

App. 63
Chapter 26: Concealed Weapons, undated, reprinted
in REVISED ORDINANCES OF THE VILLAGE OF HINSDALE,
ILLINOIS 168-69 (Lawrence P. Conover ed., 1912) (Hinsdale, Illinois).
Section 1: It shall be unlawful for any person
within the limits of the village of Hinsdale to carry or
wear under his clothes or concealed about his person
any pistol, colt or slung shot, cross knuckles, or knuckles of lead, brass or other metal, or bowie knife, dirk,
dagger, or other dangerous or deadly weapon.
Section 2: Any such weapon or weapons duly adjudged by any police magistrate or justice of the peace
to have been worn or carried by any person, in violation
of the preceding section, shall be forfeited or confiscated to the village of Hinsdale, and shall be so adjudged, as a part of the judgment for each violation, by
the magistrate before whom the trial of any person for
a violation of this Chapter shall be had.
Section 3: Any policeman of the village of Hinsdale may, within the limits of said village, without a
warrant, arrest any person or person whom he may
find in the act of carrying or wearing concealed about
his or their persons any weapon specified in section one
of this chapter, until a summons or warrant can be procured on complaint made, under oath or affirmation,
for the trial of such person or persons.
Section 4: Any person or persons convicted of violating any of the provisions of this chapter shall be
subject to a fine of not less than five dollars nor more
than two hundred dollars.

App. 64
Section 5. The prohibitions of this chapter shall
not apply to officers or members of the police force of
said village when on duty, nor to any officer of any
court whose duty it may be to serve warrants or to
make arrests; nor to persons whose business or occupation may seem to require the carrying of weapons for
their protection, and who shall have obtained from the
president a license so to do, as hereinafter provided.
Section 6: The president may grant to so many
and such persons as he may think proper licenses to
carry concealed weapons, and may revoke any and all
such licenses at his pleasure.
Section 7: Applications for such licenses shall be
made to the village clerk, and when granted the applicant therefor shall pay to the village collector, for the
use of the village, the sum of two dollars.
Section 8: Every license shall state the name,
age, occupation and residence of the person to whom it
is granted.
Chap. IV, Art. IV, Concealed Weapons, City Ordinances
of the City of Needles, to take effect on Jan. 1, 1914,
reprinted in THE NEEDLES EYE, Nov. 29, 1913, at 2, 3
(Needles, California).
Section 60: If any person shall wear or carry concealed, any pistol, revolver, dirk, derringer, dagger,
bowie-knife, razor, brass knuckles, slugshot, sand bag,
or other dangerous or deadly weapon within the said
City of Needles, he shall be guilty of a misdemeanor

App. 65
and shall in addition to the penalty therefore, also forfeit to said City of Needles the weapons so unlawfully
worn or carried by him for which conviction is had, to
be declared in such conviction.
Section 61: The provisions of the foregoing section, shall not apply to any person in actual service as
a militiaman not to any peace officer, or person summoned to his aid, not to any revenue or other civil officer, engaged in the discharge of his duties, nor to the
carrying of any of said arms on one’s premises or place
of business, and the President of the Board of Trustees
may grant a permit in writing to carry or wear any
such weapon or weapons, when in his judgment a necessity exists for same, and stating therein the time for
which permit is given and a copy of such permit shall
be filed with the City Clerk within twenty-four hours
from the time of giving the same.
Carrying Concealed Weapons, undated, reprinted in
THE CODE OF COLORADO SPRINGS 273 (Frank Exline ed.,
1914) (Colorado Springs, Colorado).
Section 260: No person shall carry or wear under
his clothes or concealed about his person, any pistol,
revolver, bowie knife, dirk or other deadly weapon. No
person shall display or flourish any deadly weapon in
a threatening or boisterous manner. This section shall
not apply to police officers when on duty, and the mayor
may grant to any and all such persons as he may think
proper, license to carry concealed weapons and may revoke any and all such licenses at his pleasure. Each

App. 66
such license shall state the name, age, occupation and
residence of the person to whom it is granted and each
such license shall expire with the current municipal
year.9
Chapter XXII: Offenses Against Public Safety: Regulate Carrying of Weapons, undated, reprinted in CHARTER AND GENERAL ORDINANCES OF THE CITY OF MADISON,
WISCONSIN 292 (V. M. Stolts ed., 1917) (Madison, Wisconsin).
Section 2: It shall be unlawful for any person, except policemen or any officer authorized to serve process, to carry or wear concealed about his person, any
pistol or revolver, slung shot, cross-knuckles, knuckles
of lead, brass or other metal, or bowie knife, dirk knife,
or dirk or dagger, or any other dangerous or deadly
weapon, within the limits of the city of Madison; provided, however, that the chief of police of said city may,
upon any written application to him made, issue and
give a written permit to any person residing within the
city of Madison to carry within the said city, for reasonable length of time, to be specified in the permit, a pistol or revolver when it is made to appear to said chief
of police that it is necessary for the personal safety of
such person or for the safety of his property or for the
property with which he may be entrusted, to carry such
weapon; and the holding of such permit by such person
9

In 1904, Windsor, Colorado adopted a similar ordinance.
See Ordinance No. 4, New Series: An Ordinance Concerning Various Offenses, May 16, 1904, reprinted in THE POUDRE VALLEY,
May 28, 1904, at 6 (Section 13).

App. 67
shall be a bar to prosecution under this section. Said
chief of police shall keep the names and residences of
all persons to whom he may grant such permits in a
book, to be kept for that purpose, and he shall have
power to revoke such permit at any time.
Said chief of police shall, upon granting each and
every such permit, collect from the person to whom the
same is granted, the sum of one dollar, and he shall pay
all moneys so collected by him, upon granting such permits, into the city treasury.
Any person who shall violate the provisions of this
section, shall be punished by a fine of not less than five
dollars nor more than one hundred dollars.10
III. Mid-to-Late Nineteenth Century Laws Prohibiting the Carrying of Concealed and
Dangerous Weapons (Some with Express
Carrying Exceptions)
The Mayor and Common Council of Los Angeles City
Do Ordain as Follows, Jul. 17, 1865, reprinted in THE
LOS ANGELES TRI-WEEKLY NEWS, Jul. 22, 1865, at 2 (Los
Angeles, California).
Section 1: In future, no persons, except peace officers and persons actually traveling, and immediately
passing through Los Angeles city, shall wear or carry
any dirk, pistol, sword in a cane, slung shot, or other
10

The municipality of Appleton, Wisconsin adopted a similar
ordinance by 1907. See Ordinance No. 5: An Ordinance Prescribing Misdemeanors and the Punishment Thereof, § 28, undated,
APPLETON WEEKLY POST, Jul. 25, 1907, at 7.

App. 68
dangerous and deadly weapons, concealed or otherwise, within the corporate limits of said city, under a
penalty of not more than one hundred dollars fine, and
imprisonment at the discretion of the Mayor, not exceeding ten days.
Section 2: It is hereby made the duty of each police officer of this city when any stranger shall come
within said corporate limits wearing or carrying weapons, to as soon as possible give them information and
warning of this Ordinance, and in case they refuse or
decline to obey such warning, by depositing their weapons in a place of safety, to complain of them immediately, under the first section of this Ordinance.
Section 3: This Ordinance shall go into effect immediately after its passage.11
An Ordinance Relating to the Carrying of Fire Arms
and Other Deadly Weapons, to take effect on May 20,
1870, reprinted in THE ABILENE CHRONICLE, May 12,
1870, at 1 (Abilene, Kansas),.
Section 1: That any person who shall carry,
within the limits of the town of Abilene, or commons, a
pistol, revolver, gun, musket, dirk, bowie-knife, or other
dangerous weapon upon his or their person or persons,
either openly or concealed, except to bring the same
and forthwith deposit it or them at their house, boarding house, store room or residence, shall be fined in a
11

On April 10, 1889, the Los Angeles city council amended
their law to allow permitted carrying. See Ordinance No. 8, LOS
ANGELES HERALD, Apr. 12, 1889, at 7.

App. 69
sum not less than ten dollars nor more than fifty dollars; and it shall be the duty of any town constable, or
policeman of this town, to arrest and disarm any person violating this ordinance, and to deposit the arms
so taken with the captain of the town police, to be by
him kept until he is, by the magistrate taking cognizance of the offense of carrying arms as aforesaid, authorized to deliver the same to the person or persons
from whom the same shall have been taken.
Section 2: Any and every person who shall be in
violation of this ordinance, within the town of Abilene,
or commons, and who shall refuse to deposit his or
their arms with the constable or policeman as aforesaid, or shall resist any officer who may attempt to disarm him or them according to the provisions of section
one of this ordinance, shall be imprisoned in the common goal of the town not less than twenty-four hours
nor more than ten days, and fined not less than $10
nor more than one hundred dollars: Provided, that the
provisions of this ordinance shall not apply to the constable or any officer of the town of Abilene, while in the
discharge of their duties as such constable or policeman.
[ . . . ] Section 4: This ordinance shall take effect
and be in force from the 20th of May 1870.

App. 70
An Act Regulating the Right to Keep and Bear Arms,
Aug. 12, 1870, reprinted in 2 GEORGE W. PASCHAL, A
DIGEST OF THE LAWS OF TEXAS: CONTAINING THE LAWS
IN FORCE, AND THE REPEALED LAWS ON WHICH RIGHTS
REST FROM 1864 TO 1872, at 1322 (1873) (Texas).
Section 1: If any person shall go into any church
or religious assembly, any school-room or other place
where persons assembled for educational, literary, or
scientific purposes, or into a ball room, social party, or
other social gathering, composed of ladies and gentlemen, or to any election precinct on the day or days of
any election, where any portion of the people of this
state are collected to vote at any election, or to any
other place where people may be assembled to muster
or to perform any other public duty, or any other public
assembly, and shall have about his person a bowieknife, dirk, or butcher-knife, or firearms, whether known
as a six-shooter, gun, or pistol of any kind, such persons
so offending shall be deemed guilty of a misdemeanor,
and on conviction thereof shall be fined in a sum not
less than fifty or more than five hundred dollars, at the
discretion of the court or jury trying the same: Provided, That nothing contained in this section shall apply to locations subject to Indian depredations: And
provided further, That this act shall not apply to any
person or persons whose duty it is to bear arms on such
occasions in discharge of duties imposed by law.

App. 71
Chapter XXV: An Act to Prevent the Carrying of
Concealed Weapons, Aug. 10, 1871, reprinted in LAWS
OF THE DISTRICT OF COLUMBIA: 1871-1872, Part II, 33
(1872) (District of Columbia).
Be it enacted by the Legislative Assembly of the
District of Columbia, That it shall not be lawful for
any person or persons to carry or have concealed about
their persons any deadly or dangerous weapons, such
as daggers, air-guns, pistols, bowie-knives, dirk-knives,
or dirks, razors, razor-blades, sword-canes, slung-shots,
or brass or other metal knuckles, within the District of
Columbia; and any person or persons who shall be duly
convicted of so carrying or having concealed about
their persons any such weapons shall forfeit and pay,
upon such conviction, not less than twenty dollars nor
more than fifty dollars, which fine shall be prosecuted
and recovered in the same manner as other penalties
and forfeitures are sued for and recovered: Provided,
That the officers, non-commissioned officers, and privates of the United States army, navy, and marine
corps, police officers, and members of any regularly organized militia company or regiment, when on duty,
shall be exempt from such penalties and forfeitures.12

12

In 1892, Congress enacted a law that provided local judges
of the “police court” discretion to issue armed carriage permits
“for a period of not more than one month at any one time, upon
satisfactory proof to him of the necessity for the granting thereof
. . . ” See Chap. 159—An Act to Punish the Carrying or Selling of
Deadly or Dangerous Weapons Within the District of Columbia,
and for Other Purposes, Jul. 13, 1892, reprinted in 2 SUPPLEMENT
TO THE REVISED STATUTES OF THE UNITED STATES, 1892-1893, at 30,
31 (1893).

App. 72
Chapter XX: Misdemeanors, undated, reprinted in A
COMPILATION OF THE LAWS AND ORDINANCES OF THE CORPORATION OF LEBANON 52, 56-57 (R.E. Thompson ed.,
1871) (Lebanon, Tennessee).
Section 23: Whoever shall carry concealed upon
or about his person any pistol, Bowie knife, dirk, sword
cane or other dangerous weapon, within the limits of
the Corporation, unless on a journey or permitted by
law to carry weapons, shall be deemed guilty of a misdemeanor, and fined not less than three dollars nor
more than fifty dollars for each offence.
Chapter XXVIII: Peace and Order, undated, reprinted
in REVISED ORDINANCES OF THE CITY OF OMAHA 85, 8687 (John P. Bartlett ed., 1872) (Omaha, Nebraska).
Section 6: If any person shall carry any concealed weapon or weapons, or have concealed upon or
about his or her person any revolver, pistol, slung shot,
bowie knife, or other deadly weapon or instrument,
such person shall be deemed guilty of a misdemeanor,
and, on conviction thereof, shall be fined in any sum
not exceeding twenty dollars. The foregoing provision
shall not apply to officers whose duties require that
they should carry arms, nor to well known and worthy
citizens, or persons of good repute who may carry arms
for their own protection in going to or from their place
or places of business, if such business be lawful.13

13

By 1894, Omaha’s armed carriage ordinance was revised
and read as follows: “It shall be unlawful for any person to wear
under his clothes, or concealed about his person, any pistol or

App. 73
Ordinance No. 9: Carrying Deadly Weapons, Jan. 28,
1873, reprinted in ARIZONA CITIZEN, Feb. 8, 1873, at 2
(Tucson, Arizona).
Section 1: Every person not being a peace officer,
who shall wear or carry any dirk, dirk-knife, gun, pistol, sword in a cane, slung-shot or other dangerous or
deadly weapon, contrary to the provisions of this ordinance, within the inhabited portions of the corporate
limits of the Village of Tucson, shall upon conviction
before the Recorder be fined any sum not exceeding ten
dollars, or be imprisoned for a period not exceeding ten
days, or by both such fine and imprisonment in the discretion of the court.

revolver, colt, billy, slug-shot, brass knuckles or knuckles of lead,
dirk, dagger, or any knife resembling a bowie knife, or any
other dangerous or deadly weapon within the corporate limits of
Omaha. And any person guilty of a violation of this section shall,
on conviction, be fined not exceeding one hundred ($100) dollars
for each and every offense; nothing in this section, however, shall
be construed as to prevent the United States marshals and their
deputies, sheriffs and their deputies, regular or special police officers of the city, from carrying or wearing such weapons as may
be deemed necessary for the proper discharge of their duties. Provided, however, If it shall be proved from the testimony on the
trial of any such case, that the accused was, at the time of carrying any weapon as aforesaid, engaged in the pursuit of any lawful
business, calling or employment and the circumstances in which
he was placed at the time aforesaid were such as to justify a prudent man in carrying the weapon or weapons aforesaid, for the
defense of his person, property, or family, the accused shall
be acquitted.” Ordinances Defining Misdemeanors, undated, reprinted in COMPILED MISDEMEANOR ORDINANCES OF THE CITY OF
OMAHA 11, 14-15 (W.J. Connell ed., 1894).

App. 74
Section 2: It shall be the duty of the Village
Marshal or any peace officer to notify all persons who
he may observe with any dangerous or deadly weapon,
in violation of section one of this ordinance, to at once
remove the same, stating to the person so notified that
it is a violation of the ordinances of the Village of Tucson to carry any arms, dangerous or deadly, weapon,
and if any person after having been so notified by the
Marshal or a peace officer, shall refuse, fail or neglect
for a period of two hours to remove the same, it shall
be the duty of the Marshal or peace officer to take any
dirk, dirk-knife, gun, pistol, sword in cane, slung-shot
or other dangerous or deadly weapon from the party
upon whose person it may be found, and arrest any
such person so offending and take him before the Recorder, who shall fine the party so offending in any sum
not exceeding ten dollars, or be imprisoned for any period not exceeding ten days, or by both such fine and
imprisonment in the discretion of the court; provided,
that nothing in this section contained shall be construed to prohibit the Marshal or any peace officer
from disarming any person at once upon giving the notification hereinbefore required if he has good reason
to believe that a breach of the peace is contemplated or
may ensue.

App. 75
Chapter 108: Carrying Pistols, Bowie-Knives, Etc.,
Dec. 26, 1873, reprinted in ORDINANCES OF THE CITY OF
NASHVILLE 340-41 (William K. McAlister, Jr. ed., 1881)
(Nashville, Tennessee).
Section 1: That every person found carrying a
pistol, bowie-knife, dirk-knife, slung-shot, brass knucks
or other deadly weapon, shall be deemed guilty of a
misdemeanor, and, upon conviction of such first offense, shall be fined from ten to fifty dollars, at the discretion of the court, but upon conviction of every such
subsequent offense, shall be fined fifty dollars; Provided, however, That no ordinary pocket knife and common walking-canes shall be construed to be deadly
weapons.
[ . . . ] Section 5: It is expressly understood that
the provisions of this act relating to carrying such
deadly weapons as are mentioned in the preceding sections, do not extend to police or other officers, or persons that are entitled by law to carry such deadly
weapons, nor does it extend to the act of handling or
moving such deadly weapons in any ordinary business
way.
An Act to Prevent the Carrying of Fire Arms and Other
Deadly Weapons, Dec. 2, 1875, reprinted in THE COMPILED LAWS OF WYOMING 352 (J.R. Whitehead ed., 1876)
(Wyoming).
Section 1: That hereafter it shall be unlawful for
any resident of any city, town or village, or for any one
not a resident of any city, town or village, in said

App. 76
Territory, but a sojourner therein, to bear upon his person, concealed or openly, any fire arm or other deadly
weapon, within the limits of any city, town or village.
Section 2: That if any person not a resident of
any town, city or village of Wyoming Territory, shall,
after being notified of the existence of this act by a
proper peace officer, continue to carry or bear upon his
person any fire arm or other deadly weapon, he or she,
shall be deemed to be guilty of a violation of the provisions of this act and shall be punished accordingly.
Section 3: Any person violating any of the provisions of this act shall be deemed guilty of a misdemeanor, and upon conviction thereof, shall be punished
by a fine of not less than five dollars nor more than fifty
dollars, and, in the default of the payment of any fine
which may be assessed against him, shall be imprisoned in the county jail for not less than five days nor
more than twenty days. (Wyoming).
Ordinance No. 1, Jul. 2, 1877, reprinted in THE MINING
ECHO, Jul. 7, 1877, at 1 (Empire City, Kansas).
Section 6: Any person who shall carry any concealed pistol, dirk, or other deadly weapon, within the
limits of this city, shall be deemed guilty of a misdemeanor, and upon conviction thereof, be fined in a sum
not less than $10 nor more than $50.
[ . . . ] Section 8: Any person who shall, while exercising the right to carry firearms, not concealed, be
intoxicated, or shall do any act or thing calculated to

App. 77
cause apprehension or alarm to any citizen within the
limits of this city shall be deemed guilty of a misdemeanor, and upon conviction be fined in a sum not less
than $3.00 nor more than $20.00.
Chapter XXVII: Offenses Against the Public Peace
and Quiet, undated, reprinted in CHARTER AND ORDINANCES OF THE CITY OF SYRACUSE 191, 192 (1877) (Syracuse, New York).
Section 7: Any individual who shall carry about
his or her person any dirk, bowie knife, sword or spear
cane, pistol, revolver, slung-shot, jemme, brass knuckles, or other deadly or unlawful weapon, or shall use
any deadly or unlawful weapon, with the intent to do
bodily harm to any other person or persons, shall be
liable to a fine of not less than twenty-five dollars, and
also to imprisonment not to exceed three months.14
Chapter 5: Offenses Against the Person, undated, reprinted in THE REVISED ORDINANCES OF PROVO CITY,
CONTAINING ALL THE ORDINANCES IN FORCE 105, 106-7
(1877) (Provo, Utah).
Section 182: Every person who shall wear, or
carry upon his person any pistol, or other firearm,
slungshot, false knuckles, bowieknife, dagger or any
14

In 1892, it appears that the law was amended to allow the
“chief of police . . . to issue permits [to carry pistols], in proper
cases, upon receiving from the applicant for such permit the sum
of two dollars and fifty cents, but no permit shall continue in force
for more than one year . . . ” CHARTER AND ORDINANCES OF THE CITY
OF SYRACUSE, NEW YORK 243 (1894).

App. 78
other dangerous or deadly weapon, is guilty of an offense, and liable to a fine in any sum not exceeding
twenty-five dollars; Provided, that nothing in this section, shall be construed to apply to any peace officer,
of the United States, the Territory of Utah, or of this
city.
An Ordinance Defining Offenses and Fixing the Punishment Thereof, Aug. 16, 1878, reprinted in AMENDED
CHARTER AND ORDINANCES OF THE CITY OF WALLA WALLA
165, 170 (Alex Mackay and W.T. Dovell eds., 1896)
(Walla Walla, Washington).
Section 27: No person shall carry any concealed
weapons within the corporate limits of the City of
Walla Walla, and any person convicted thereof shall
be fined in any sum not less than five or more than
twenty-five dollars; and such weapons shall be confiscated and forfeited, and it shall be the duty of the Marshal, his Deputies and the Policemen of the City, upon
being satisfied, by verbal complaint or other information, that any person is carrying any weapon concealed upon his person, to arrest and search such
person, and if any such weapon is found, to take the
same and convey such person before a Justice of the
Peace and make complaint against him, and upon his
conviction, to sell such weapon at auction to the highest bidder, and pay the proceeds into such Justice’s
court. All sheath or bowie knives, pistols, and pocket
knives with blades more than four inches long, also
all sling-shots, metal knuckles, clubs, sticks or other
instruments, capable of inflicting great bodily injury,

App. 79
shall be deemed weapons within the meaning of this
section when carried either wholly or partially concealed; provided, that this section shall not apply to
the City Marshal, his Deputies, or Policemen, or City
Watchmen, or private watchmen employed as such by
private citizens, nor the Sheriff, Deputy Sheriff, or any
Constable of Walla Walla County, or to any person temporarily sojourning in the City for a period of not exceeding five days’ prior to the filing of the complaint,
but in no case shall it be necessary to specify in the
complaint that the accused does not belong to the excepted classes herein specified.
An Ordinance to Prevent the Carrying of Concealed
Weapons, Feb. 4, 1882, reprinted in THE WORTHINGTON
ADVANCE, Feb. 9, 1882, at 3 (Worthington, Minnesota).
Section 1: That it shall be unlawful for any person within the corporate limits of the village of Worthington to carry any pistol, dirk, slung shot or other
dangerous weapon, concealed on his person.
Section 2: Whoever offends against the provisions of this ordinance shall on conviction thereof, be
punished by a fine of not less than Five Dollars nor
more than One Hundred Dollars, and in default of the
payment of said fine, be imprisoned for a period of not
more than sixty days.

App. 80
An Ordinance To Preserve the Peace and Good Order of
the City of San Jose, May 22, 1882, reprinted in CHARTER AND REVISED ORDINANCES OF THE CITY OF SAN JOSE
91 (1882) (San Jose, California).
Section 4: It shall be unlawful for any person not
being a public officer, to wear or carry concealed in this
city any pistol, dirk, or other dangerous weapon.
Ordinance No. 12: Deadly Weapons, May 3, 1883, reprinted in THE BURLINGTON PATRIOT, May 18, 1883, at
4 (Burlington, Kansas).
Section 1: That it shall be unlawful for any person to carry on his or her person, any pistol, bowie
knife, dirk, or other deadly weapon, concealed or otherwise, within the limits of the said City of Burlington.
Provided: This section shall not apply to any officer of
the law while on duty.
Section 2: Any person who is found within the
limits of the City of Burlington, carrying on his or her
person, any pistol, bowie knife, dirk, or other deadly
weapons, concealed or otherwise, in violation of the
provisions of this ordinance, shall, on conviction, be
fined not less than three nor more than twenty-five
dollars, and shall be committed until such fine and
costs are paid.
Section 3: This ordinance shall take effect and be
in force from and after its publication.

App. 81
An Act to Prohibit the Unlawful Carrying and Use of
Deadly Weapons, Feb. 18, 1887, reprinted in ACTS OF
THE LEGISLATIVE ASSEMBLY OF THE TERRITORY OF NEW
MEXICO, TWENTY-SEVENTH SESSION 55-58 (1887) (New
Mexico).
Section 1: That any person who shall hereafter
carry a deadly weapon, either concealed or otherwise,
on or about the settlements of this territory, except it
be in his or her residence, or on his or her landed estate, and in the lawful defense of his or her person,
family or property, the same being then and there
threatened with danger, or except such carrying be
done by legal authority, upon conviction thereof shall
be punished by a fine of not less than fifty dollars, nor
more than three hundred, or by imprisonment not less
than sixty days, nor more than six months, or by both
such fine and imprisonment, in the discretion of the
court or jury trying the same.
[ . . . ] Section 7: It shall not be necessary, in the
trial of any cause arising under the provisions of this
act to prove that the person charged was not, at the
time of violating the said provisions, in the lawful defense of himself, his family or property, or acting by
lawful authority, but the accused must prove that he
was, at such time, within the exception claimed.
[ . . . ] Section 9: Persons traveling may carry
arms for their own protection while actually prosecuting their journey and may pass through settlements on
their road without disarming; but if such travelers
shall stop at any settlement for a longer time than fifteen minutes they shall remove all arms from their

App. 82
person or persons, and not resume the same until upon
the eve of departure.
Ordinance No. 5, Feb. 6, 1888, reprinted in THE JOHNSON CITY WORLD, Feb. 9, 1888, at 8 (Johnson City, Kansas).
Section 1: Any person who shall draw a pistol,
revolver, knife, or any other deadly weapon upon another person, unless an officer of the law, in the discharge of his duty, shall upon conviction, be fined in a
sum not less than Five nor more than One Hundred
Dollars.
[ . . . ] Section 10: Any person carrying any
deadly or dangerous weapons, such as fire arms, slug
shots, sheath or dirk knife, or any other weapon, which,
when used, is liable to produce death or great bodily
harm, unconcealed, within the corporate limits of the
City, shall, upon conviction, be fined in a sum not less
than One nor more than Twenty-five Dollars.
Provided, However, that no person shall be arrested and fined under this section without first having
been notified by the City Marshal or any other City officer that the carrying of such weapon or weapons is
contrary to the City ordinance, and giving such person
ample time to remove such weapon from his or her person and to put it in some place of safety.

App. 83
Ordinance No. 22: An Ordinance Relating to the Promotion of the Public Peace, Feb. 7, 1888, reprinted in
NEW ULM REVIEW, Feb. 22, 1888, at 1 (New Ulm, Minnesota).
Section 2: It shall be unlawful for any person,
within the limits of this city to carry or wear under his
clothes or concealed about his person, any pistol, dirk,
sling-shot, or knuckles or brass or other metal, or any
other dangerous or deadly weapon. Any such weapon
duly adjudged by any justice court of said city to have
been worn or carried by any person in violation of this
section, shall be adjudged and declared forfeited or
confiscated to the city of New Ulm; and every such person so offending, on conviction, may in addition to the
penalty hereinafter described, be required to furnish
sureties for keeping the peace for a term not exceeding
six months.
Section 3: The prohibition in the preceding section shall not apply to police, peace, and other officers
of courts, whose duty may be to secure warrants or
make arrests, nor to persons whose business or occupation may require the carrying of weapons for protection. Nothing in the ordinance of this city shall be
construed to prohibit within the city limits any firing
of a gun, pistol or other fire-arm when done in the lawful defense of person, property or family, or in the necessary enforcement of the laws.
Section 4: All property confiscated to the city under this ordinance shall be turned over to the city
council by the officer or person having the same in

App. 84
charge, with a full report of the same. The city council
may dispose of such property in such manner as they
see fit.
Section 5: Any person violating any of the provisions of this ordinance shall on conviction be punished
by a fine of not exceeding one hundred dollars and
costs and be imprisoned until such fine and costs are
paid not exceeding ninety days.
Section 6: This ordinance shall take effect from
and after approval and publication.15
Ordinance No. 88, Mar. 8, 1888, reprinted in WILSON
COUNTY CITIZEN, Mar. 16, 1888, at 3 (Fredonia, Kansas).
Section 5: Every person who shall be guilty of
carrying any revolver, pistol, dirk, bowie knife or other
deadly weapon upon his person, concealed or otherwise, except ministerial officers in the discharge of
their duties, and travelers who do not remain more
than twenty-four hours in the city aforesaid, shall be
deemed guilty of a misdemeanor.

15

See also Ordinance No. 22: An Ordinance Relating to the
Promotion of the Public Peace, Feb. 7, 1888, reprinted in THE
CHARTER AND ORDINANCES IN THE CITY OF NEW ULM, MINNESOTA
110-11 (1887).

App. 85
An Ordinance Relating to Certain Public Offenses and
Fixing the Punishment Therefor, Jul. 12, 1888, reprinted in THE WICHITA DAILY BEACON, Jul. 14, 1888,
at 4 (Wichita, Kansas).
Section 1: That any person, not an officer of the
law in the execution of his duty, who shall, in the city
of Wichita, draw a pistol, revolver, knife or any other
deadly weapon upon another person, shall upon conviction, be fined not less than twenty-five ($25.00) dollars, nor more than one hundred ($100.00) dollars.
Section 2: Any person who shall in the city of
Wichita, carry unconcealed, any fire arm, slungshot,
sheath or dirk, knife, or any other weapon, which when
used is likely to produce death or great bodily harm,
shall, upon conviction, be fined not less than one dollar,
nor more than twenty-five dollars.
Section 3: Any person who shall, in the city of
Wichita, carry concealed about his person any fire arm,
slungshot, sheath or dirk knife, brass knuckles, or any
other weapon, which when used is likely to produce
death or great bodily harm, shall upon conviction, be
fined in any sum not exceeding one hundred ($100.00)
dollars.

App. 86
An Act Defining and Punishing Certain Offenses
Against the Public Peace, Mar. 18, 1889, reprinted in
ACTS, RESOLUTIONS AND MEMORIALS OF THE FIFTEENTH
LEGISLATIVE ASSEMBLY OF THE TERRITORY OF ARIZONA
30-31 (1889) (Arizona).
Section 1: If any person within any settlement,
town, village or city within this Territory shall carry
on or about his person, saddle, or in his saddlebags,
any pistol, dirk, dagger, slung shot, sword-cane, spear,
brass knuckles, bowie knife, or any other kind of knife
manufactured or sold for the purposes of offense or defense, he shall be punished by a fine of not less than
twenty-five nor more than one hundred dollars; and in
addition thereto, shall forfeit to the County in which
he is convicted, the weapon or weapons so carried.
Section 2: The preceding article shall not apply
to a person in actual service as a militiaman, nor as a
peace officer or policeman, or person summoned to his
aid, nor to a revenue or other civil officer engaged in
the discharge of official duty, nor to the carrying of
arms on one’s own premises or place of business, nor
to persons traveling, nor to one who has reasonable
ground for fearing an unlawful attack upon his person,
and the danger is so imminent and threatening as not
to admit of the arrest of the party about to make such
attack upon legal process.
Section 3: If any person shall go into any church
or religious assembly, any school room, or other place
where persons are assembled for amusement or for
educational or scientific purposes, or into any circus,
show or public exhibition of any kind, or into a ball

App. 87
room, social party or social gathering, or to any election
precinct on the day or days of any election, where any
portion of the people of this Territory are collected to
vote at any election, or to any other place where people
may be assembled to muster or to perform any other
public duty, or to any other public assembly, and shall
have or carry about his person a pistol or other firearms, dirk, dagger, slung shot, sword-cane, spear, brass
knuckles, bowie knife, or any other kind of a knife manufactured and sold for the purposes of offense or defense, he shall be punished by a fine not less than fifty
nor more than five hundred dollars, and shall forfeit to
the County the weapon or weapons so found on his person.
[ . . . ] Section 6: Persons traveling may be permitted to carry arms within settlements or towns of
the Territory for one-half hour after arriving in such
settlements or town, and while going out of such towns
or settlements; and Sheriffs and Constables of the
various Counties of this Territory and their lawfully
appointed deputies may carry weapons in the legal
discharge of the duties of their respective offices.
Chapter XVII: Carrying Concealed Weapons—Firing
Guns, Pistols, Fire Crackers, Etc., May 22, 1890, reprinted in GENERAL ORDINANCES OF THE TOWN OF COLUMBIA, IN BOONE COUNTY, MISSOURI 34, 35 (Lewis M.
Switzler ed., 1890) (Columbia, Missouri).
Section 162: Any person who shall be guilty of
carrying concealed upon or about his person any pistol,
bowie knife, dirk, dagger, slung shot, or other deadly or

App. 88
dangerous weapon, shall be deemed guilty of a misdemeanor, and upon conviction shall be fined not less
than twenty-five nor more than one hundred dollars
for every such offense.
Section 163: Any person who shall go into any
church, or place where people have assembled for religious worship; or into any school room, or place where
people are assembled for educational, literary or social
purposes; or into any court room, during the sitting of
court, or to any election precinct on any election day;
or into any other public assemblage of persons met for
any lawful purpose, other than for military drill, or
meetings, called under the militia laws of this state,
carrying concealed or in sight upon or about his person,
any fire arms or other deadly or dangerous weapon,
shall be deemed guilty of a misdemeanor, and upon
conviction shall be fined not less than one hundred nor
more than one hundred and fifty dollars for ever[y]
such offense.
Section 164: Any person who shall be guilty of
exhibiting any fire arms, or other deadly or dangerous
weapon in a rude, angry, or threatening manner; or
who shall carry any such weapon upon or about his
person when intoxicated or under the influence of intoxicating drinks, shall be deemed guilty of a misdemeanor, and shall upon conviction be fined not less
than fifty dollars for every such offense.
Provided, that the three last preceding sections
shall not apply to police officers, nor to any officer
whose duty it is to execute process or warrants, or to

App. 89
suppress breaches of the peace, or make arrests, nor to
any posse when lawfully summoned and on duty; nor
shall section 162 apply to persons moving or traveling
peaceably through the state.
Article 47: Concealed Weapons, undated, reprinted in
THE STATUTES OF OKLAHOMA 1890, at 495-96 (Will T.
Little, L.G. Pitman, & R.J. Barker eds., 1891) (Oklahoma).
Section 1: It shall be unlawful for any person in
the Territory of Oklahoma to carry concealed on or
about his person, saddle, or saddle bags, any pistol, revolver, bowie knife, dirk, dagger, slung-shot, sword
cane, spear, metal knuckles, or any other kind of knife
or instrument manufactured or sold for the purpose of
defense except as in this article provided.
Section 2: It shall be unlawful for any person in
the Territory of Oklahoma, to carry upon or about his
person any pistol, revolver, bowie knife, dirk knife,
loaded cane, billy, metal knuckles, or any other offensive or defensive weapon, except as in this article provided . . .
[ . . . ] Section 4: Public officers while in the discharge of their duties or while going from their homes
to their place of duty, or returning therefrom, shall be
permitted to carry arms, but at no other time and under no other circumstances: Provided, however, That if
any public officer be found carrying such arms while
under the influence of intoxicating drinks, he shall be

App. 90
deemed guilty of a violation of this article as though he
were a private person.
Section 5: Persons shall be permitted to carry
shot-guns or rifles for the purpose of hunting, having
them repaired, or for killing animals, or for using the
same in public muster or military drills, or while travelling or removing from one place to another, and not
otherwise.
[ . . . ] Section 7: It shall be unlawful for any person, except a peace officer, to carry into any church or
religious assembly, any school room or other place
where persons are assembled for public worship, for
amusement, or for educational or scientific purposes,
or into any circus, show or public exhibition of any
kind, or into any ball room, or to any social party or
social gathering, or to any election, or to any place
where intoxicating liquors are sold, or to any political
convention, or to any other public assembly, any of the
weapons designated in sections one and two of this article.
[Halstead City Ordinances Revision and Publication]:
Ordinance No. 8: Misdemeanors and Their Punishment,
Feb. 27, 1891, reprinted in THE HALSTEAD INDEPENDENT,
Mar. 6, 1891, at 2 (Halstead, Kansas).
Section 7. Concealed Weapons: That any person
who shall have or carry on his person, in this city, in a
concealed manner, or parade the streets openly carrying any pistol, revolver, dirk, bowie knife, slungshot,
billy, metallic knuckles, or other deadly weapon, shall,

App. 91
on conviction thereof, be fined not less than one dollar
nor more than twenty-five dollars and costs; provided,
this section shall not apply to officer on duty.
[ . . . ] Section 9: That any person, while intoxicated, who shall carry any firearms or other concealed
weapons, in this city, or do any act or thing calculated
to cause alarm or apprehension to others, shall, upon
conviction, be fined not less than five nor more than
twenty five dollars and costs.
Ordinance No. 2: An Ordinance Prohibiting the Carrying of Deadly Weapons, Sep. 1893, reprinted in THE
WEST SIDE DEMOCRAT, Oct. 3, 1893, at 2 (Enid, Oklahoma).
Section 1. That it shall be unlawful for any person to carry about his person any description of firearms, or any sharp or dangerous weapon, such as is
usually employed in attacks or defense of the person,
and upon conviction shall be fined in a sum of not less
than twenty-five dollars nor more than one-hundred
dollars. This ordinance shall take effect and be in force
after its publication in the West Side Democrat.
Centennial City Law, Apr. 4, 1897, reprinted in NASHVILLE AMERICAN, Apr. 5, 1897, at 8 (Centennial, Tennessee).
Section 2: Every person found carrying a pistol,
bowie knife, dirk knife, sling-shot, brass knucks or
other deadly weapon shall be deemed guilty of a misdemeanor, and upon conviction of such first offense

App. 92
shall be fined not less than ten nor more than fifty dollars, at the discretion of the Recorder; but upon conviction of every subsequent offense shall be fined no less
than fifty dollars; but no ordinary pocket knife nor
walking cane shall be construed to be a deadly weapon
as herein contemplated . . .
[ . . . ] Section 4: It is expressly understood that
the provisions of the above sections relating to the carrying of deadly weapons do not extend to police or
other officers or persons who are entitled by the law to
carry such deadly weapons, nor does it extend to the
act of handling or moving such deadly weapons in an
ordinary business way.
IV. Mid-to-Late Nineteenth Century Laws Prohibiting the Carrying of Concealed and
Dangerous Weapons with a Reasonableness Exception
Ordinance No. 74: An Ordinance Relating to Breaches
of the Peace, Disorderly Conduct and the Carrying of
Concealed Weapons, May 24, 1870, reprinted in CITY
CHARTER OF THE CITY OF HASTINGS 74, 75 (1884) (Hastings, Minnesota).
Section 3: Any person who shall go armed within
the incorporated limits of said city of Hastings with a
dirk, dagger, sword, pistol or pistols, or shall carry a
slung-shot or metal knuckles or other offensive or dangerous weapon, without reasonable cause to fear an
assault or other injury to his person or to his family or
property, shall, upon conviction before said justice, be

App. 93
punished by a fine not exceeding one hundred dollars,
or by imprisonment not exceeding three months, or
both, in the discretion of the justice.
An Act to Regulate the Keeping and Bearing of Deadly
Weapons, Apr. 12, 1871, reprinted in 2 GEORGE W. PASCHAL, A DIGEST OF THE LAWS OF TEXAS: CONTAINING THE
LAWS IN FORCE, AND THE REPEALED LAWS ON WHICH
RIGHTS REST FROM 1864 TO 1872, at 1322 (1873) (Texas).
Section 1: Any person carrying on or about his
person, saddle, or in his saddle-bags, any pistol, dirk,
dagger, slung-shot, sword-cane, spear, brass-knuckles,
bowie-knife, or any other kind of knife manufactured
or sold for the purpose of offense or defense, unless he
has reasonable grounds for fearing an unlawful attack
on his person, and that such ground of attack shall be
immediate and pressing; or unless having or carrying
the same on or about his person for the lawful defense
of the state, as a militiaman in actual service, or as a
peace officer or policeman, shall be guilty of a misdemeanor, and, on conviction thereof, shall, for the first
offense, be punished by fine of not less than twenty-five
nor more than one hundred dollars, and shall forfeit to
the county the weapon or weapons so found on or about
his person; and for every subsequent offense may, in
addition to such fine and forfeiture, be imprisoned in
the county jail for a term not exceeding sixty days; and
in every case of fine under this section the fines imposed and collected shall go into the treasury of the
county in which they may have been imposed: Provided, That this section shall not be so construed as to

App. 94
prohibit any person from keeping or bearing on his or
her own premises, or at his or her own place of business, nor to prohibit sheriffs or other revenue officers,
and other civil officers, from keeping or bearing arms
while engaged in the discharge of their official duties,
nor to prohibit persons traveling in the state from
keeping or carrying arms with their baggage: Provided
further, That members of the legislature shall not be
included under the terms “civil officers” as used in this
act.
Ordinance No. 11: Crimes and Punishment, amended
Apr. 8, 1876, reprinted in ORDINANCES, CHARTER AND
LAWS FOR THE GOVERNMENT OF THE CITY OF FRANKFORT,
KENTUCKY 18, 23-24 (1891) (Frankfort, Kentucky).
Section 9: If any person shall carry concealed a
deadly weapon upon or about his person, other than an
ordinary pocket-knife, or shall sell a deadly weapon to
a minor, other than an ordinary pocket-knife, such person shall, upon conviction, be fined not less than
twenty five nor more than one hundred dollars, in the
discretion of the court or jury trying the case. Carrying
concealed deadly weapons shall be lawful in the following cases: 1st. When the person has reasonable grounds
to believe his person or the person of some of his family,
or his property, is in immediate danger from violence
or crime. 2d. By Sheriffs, Constables, Marshals, Policemen, and other ministerial officers, when necessary for
their protection in the discharge of their official duties.

App. 95
Ordinance No. 12: An Ordinance to Suppress Criminal and Improper Practices in the City of Beloit, May
13, 1879, reprinted in WESTERN CALL, May 16, 1879, at
4 (Beloit, Kansas).
Section 31: That any person who shall within
said city, carry concealed on or about his or her person,
a revolver, pistol, bowie-knife, dirk, slung-shot, brass,
lead or iron knuckles, or any other dangerous weapon,
shall be deemed guilty of a misdemeanor.
Provided, that if it shall be proved to the Police
Judge, from the testimony of any case prosecuted under this section of this ordinance, that the accused was
at the time of carrying any of the weapons aforesaid,
engaged in the pursuit of any lawful business, calling
or employment, and that the circumstances in which
he was placed at the time aforesaid were such as to
justify a prudent man in carrying the weapon or weapons aforesaid, for the defense of his person, property or
family, the accused shall be acquitted.
Carrying Concealed Weapons, Mar. 17, 1880, reprinted
in THE REVISED ORDINANCES OF THE CITY OF MASSILLON
50-51 (1893) (Massillon, Ohio).
Section 129: That whoever carries any pistol,
bowie knife, dirk, or other dangerous weapon, concealed on or about his person, shall be fined not more
than two hundred dollars, or imprisoned not more than
thirty days, and for a second offense, fined not more
than five hundred dollars, or imprisoned not more than
three months, or both.

App. 96
Section 130: That upon the trial of a complaint
for carrying a concealed weapon, the jury or the Mayor,
as the case may be, shall acquit or discharge the defendant if it be made to appear that he was at that time
engaged in a lawful business, calling or employment,
and that the circumstances in which he was placed
were as to justify a prudent man in carrying the
weapon for the defense of his person, property or family.16
An Ordinance Prohibiting the Unlawful Carrying of
Arms, May 4, 1880, reprinted in DAILY DEMOCRATIC
STATESMAN, May 9, 1880, at 2 (Austin, TX).
Section 1: Be it ordained by the City Council of
the city of Austin, That if any person in this city shall
carry on or about his person, saddle, or in his saddle
bags any pistol, dirk, dagger, slung shot, sword-cane,
spear, brass knuckles, bowie knife, or any other kind of
knife manufactured or sold for purposes of offense or
defense, he shall be punished by fine of not less than
twenty-five nor more than one hundred dollars; and in

16

Other Ohio municipalities adopted similarly worded ordinances. See An Ordinance—No. 8191: Making Certain Offenses
Therein Named Misdemeanors, Jan. 22, 1894, reprinted in ANNUAL REPORTS OF THE V ARIOUS D EPARTMENTS OF THE CITY OF
COLUMBUS . . . FOR THE YEAR ENDING DECEMBER 31, 1894, at 16, 17
(1896); REVISED ORDINANCES OF THE CITY OF NEWARK 45 (T.B.
Fulton, ed., 1901) (adopted Apr. 11, 1871). The language was
borrowed from an 1859 state law. See Laws of Ohio: An Act to
Prohibit the Carrying or Wearing of Concealed Weapons, Mar. 18,
1859, reprinted in PORTAGE SENTINEL, Jun. 9, 1859, at 1.

App. 97
addition thereto shall forfeit to the city of Austin the
weapon or weapons so carried.
Section 2: That the preceding section shall not
apply to a person in actual service as a militiaman, nor
to a peace officer or policeman, or person summoned to
his aid, nor to revenue or other civil officer engaged in
the discharge of his official duty, nor to the carrying of
arms on one’s own premises or place of business, nor to
persons traveling, nor to one who has reasonable
grounds for fearing an unlawful attack upon his person
and the danger is so imminent and threatening as not
to admit of the arrest of the party about to make such
attack, upon legal process.
Ordinance No. 51: An Ordinance to Establish a Criminal Code, May 13, 1880, reprinted in THE GLOBE-JOURNAL, Jun. 5, 1880, at 2 (Falls City, Nebraska).
Section 11: Whoever shall carry a weapon, or
weapons, concealed on or about his person, such as
a pistol, bowie knife, dirk, or any other dangerous
weapon, shall be fined not exceeding one hundred dollars, or imprisoned in jail not more than thirty days;
and for the second office fined in any sum not exceeding one hundred dollars, or imprisonment in jail no
more than ninety days, or both, at the discretion of the
court; Provide, however, if it shall be proved from the
testimony on the trial of any such case that the accused
was at the time of carrying any weapon or weapons as
aforesaid, engaged in the pursuit of any lawful business, calling or employment, and the circumstances in

App. 98
which he was placed at that time aforesaid were such
as to justify a prudent man in carrying the weapon or
weapons aforesaid for the defense of his person, property or family, the accused shall be acquitted.
Ordinance No. III: Crimes and Misdemeanors, Aug. 9,
1881, reprinted in GREENVILLE TIMES, Dec. 31, 1881, at
2 (Greenville, Missouri).
Section 8: Be it further ordained, That it shall
not be lawful for any person to carry, concealed in
whole or in part, any bowie-knife, dirk-knife, brass or
metal knuckler, pistol, slung-shot, or other deadly
weapon, (unless the party so carrying such weapon
shall be threatened with, or have good and sufficient
cause to apprehend an attack, or traveling, or setting
out on a journey, or peace officer in the discharge of
his duty,) and any person so offending shall upon conviction thereof before a Justice of the Peace having jurisdiction, be fined in any sum not exceeding one
hundred dollars, or in default thereof work at hard
labor for the term of two months; and for a second or
any subsequent offense fined not less than fifty nor
more than two hundred dollars, and if fine and costs
are not paid, condemned to hard labor not exceeding
six months.

App. 99
Chapter VI: Offenses Against Public Safety, undated,
reprinted in A REVISED CODE OF ORDINANCES OF THE
CITY OF TUSCALOOSA 160, 162, 170 (1885) (Tuscaloosa,
Alabama).
Section 380: Any person who, not being threatened with, or having good reason to apprehend an attack, carries concealed about his person a bowie-knife,
or any other knife of the like kind or description, or a
dirk, or a pistol, or fire-arms of the like kind or description, must, on conviction, be fined not exceeding fifty
dollars, and may be imprisoned or put to hard labor for
the city for not exceeding sixty days.
[ . . . ] Section 420: Any person who carries concealed about his person brass knuckles, slung-shot, or
other weapon of like kind or description, or who carries
a rifle or shot gun walking cane, shall, upon conviction
thereof, be fined not exceeding one hundred dollars,
and may be imprisoned, or put to hard labor for the city
for not exceeding sixty days.
General Ordinances of the Town of Albuquerque: An
Ordinance Relative to the Carrying of Deadly Weapons,
undated, reprinted in THE MORNING JOURNAL, Jul. 25,
1885, at 3 (Albuquerque, New Mexico).
Section 1: That is shall be unlawful for any person to carry a deadly weapon, either concealed or
unconcealed, within the limits of the town of Albuquerque, unless the same be carried in lawful defense of
himself, his family, or his property, the same being at
the time threatened with danger; or unless by order of

App. 100
legal authority, or unless such person be a regularly
authorized officer of the law in the discharge of his official duty.
Section 2: Deadly weapons within the meaning
of this ordinance shall be construed to mean any and
all kinds and classes of guns, pistols and revolvers,
slung-shots, loaded or sword canes or sand-bags, and
all kinds and classes of weapons and instruments, by
whatever name they may be called, by which a dangerous wound can be inflicted.
Section 3: Any person convicted of a violation of
this ordinance shall be punished by a fine of not less
than ten dollars more than fifty dollars, or by imprisonment in the county jail or town prison for a period of
not less than ten days nor more than sixty days, or by
both such fine and imprisonment, in the discretion of
the court.
Chapter CXLVIII: Of Offences Against the Peace, undated, reprinted in THE CODE OF WEST VIRGINIA 897–98
(John A. Warth ed., 1887) (West Virginia).
Section 7: If a person carry about his person any
revolver or other pistol, dirk, bowie knife, razor, slung
shot, billy, metallic or other false knuckles, or any other
dangerous or deadly weapon of like kind or character,
he shall be guilty of a misdemeanor, and fined not less
than twenty-five nor more than two hundred dollars,
and may, at the discretion of the court, be confined in
jail not less than one nor more than twelve months;
and if any person shall sell or furnish any such weapon

App. 101
as is hereinbefore mentioned to a person whom he
knows, or has reason, from his appearance or otherwise, to believe to be under the age of twenty-one years,
he shall be punished as hereinbefore provided; but
nothing herein contained shall be so construed as to
prevent any person from keeping or carrying about his
dwelling house or premises, any such revolver or other
pistol, or from carrying the same from the place of purchase to his dwelling house, or from his dwelling house
to any place where repairing is done, to have it repaired and back again. And if upon the trial of an indictment for carrying any such pistol, dirk, razor or
bowie knife, the defendant shall prove to the satisfaction of the jury that he is a quiet and peaceable citizen,
of good character and standing in the community in
which he lives, and at the time he was found with such
pistol, dirk, razor or bowie knife, as charged in the indictment he had good cause to believe and did believe
that he was in danger of death or great bodily harm at
the hands of another person, and that he was in good
faith, carrying such weapon for self-defence and for no
other purpose, the jury shall find him not guilty. But
nothing in this section contained shall be so construed
as to prevent any officer charged with the execution of
the laws of the State, from carrying a revolver or other
pistol, dirk or bowie knife.

App. 102
Penal Code: Chapter XLIII, undated, reprinted in
THE CODE OF ORDINANCES OF THE CITY COUNCIL OF
MONTGOMERY 213, 223, 225 (William S. Thorington ed.,
1888) (Montgomery, Alabama).
Section 509: Any person who uses fire arms of
any kind while fighting in the streets, or other public
place, (except in self defense or in the execution of the
law), must, on conviction, be fined not less than one nor
more than one hundred dollars.
[ . . . ] Section 518: Any person who carries concealed about his person a bowie-knife or any other
knife or instrument of like kind or description, or a pistol or firearms of any kind or description, or any airgun, slung-shot, brass-knuckles, or any other deadly or
dangerous weapon, must, on conviction, be fined not
less than fifty, nor more than one hundred dollars; or
may be sentenced to hard labor for the city for not more
than one hundred days; Provided, that evidence that
the defendant has good reason to apprehend attack,
may be admitted in mitigation of the punishment, or
in justification of the offense. And it shall be the duty
of the recorder and the chief of police to take this ordinance under special charge; and cause all persons
guilty of its violation to be arrested and prosecuted,
whether a prosecutor appears or not, whenever the
same is brought to knowledge or attention of either.17

17

Section 518 was adopted by the Montgomery City Council
on June 20, 1881. See Council Proceedings, MONTGOMERY DAILY
ADVERTISER, Jun. 24, 1881, at 1.

App. 103
Ordinances: Chapter I: Of the Preservation of Good
Order and Suppression of Vice, Dec. 7, 1888, reprinted
in BOTTINEAU PIONEER, Dec. 13, 1888, at 4 (Bottineau,
North Dakota).
Section 3: Any person found armed within the
corporate limits of the village of Bottineau with a dirk,
dagger, sword, pistol or pistols, or other offensive or
dangerous weapons, without reasonable cause to fear
an assault or other injury of violence to his person or
to his family or property, shall, upon conviction before
said justice, be punished by a fine not exceeding ten
dollars, or by imprisonment in the village jail not exceeding term of thirty days.
Concealed Weapons, undated 1894, reprinted in SUPPLEMENT TO THE CODE OF GENERAL LAWS OF MARYLAND
151 (John Prentiss Poe ed., 1898) (Maryland).
Chapter 547: Every person not being a conservator of the peace entitled to carry such weapon as part
of his official equipment, and not carrying such weapon
as a reasonable precaution against apprehended danger, who shall wear or carry any pistol, dirk knife,
bowie knife, slung shot, billy, sand club, metal knuckles, razor or any other dangerous or deadly weapon of
any kind whatsoever (penknives excepted,) concealed
upon or about his person, and every person who shall
carry or wear any such weapon openly, with the intent
or purpose of injuring any person in any unlawful manner, and not for any proper purpose of self-protection,
shall, upon conviction thereof be fined not more than
one thousand dollars, or be imprisoned not more than

App. 104
two years in jail or in the house of correction; and the
court or jury before whom any such case may be tried
shall in all cases have the right to judge of the reasonableness of the carrying of any such weapon, and of the
proper occasion therefor, upon satisfactory proof; and
in the case, upon conviction of any offender, the court,
in view of the evidence, shall be of the opinion that
such weapon was carried with the deliberate purpose
of inflicting grievous and unlawful injury to the life or
person of another, it shall in that case be the duty of
the court to impose the highest sentence of imprisonment hereinbefore prescribed.

